Case: 18-3111

Document: 104

Page: 1

Date Filed: 08/26/2020

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-3111

ADAM ROSEN,
Appellant
v.

SUPERINTENDENT MAHANOY SCI;
ATTORNEY GENERAL OF THE COMMONWEALTH OF
PENNSYLVANIA

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C.No. 2-15-cv-04539)
District Judge: Honorable Nitza I. Quinones Alejandro

Argued March 11, 2020
Before: McKEE, AMBRO, and PHIPPS Circuit Judges
(Opinion filed: August 26, 2020)
Karl D. Schwartz [Argued]
Jonathan D. Cioschi
Wiseman & Schwartz, LLP
718 Arch Street, Suite 702
Philadelphia, PA 19106
Counsel for Appellant

Case: 18-3111

Document: 104

Page: 2

Date Filed: 08/26/2020

Adrienne D. Jappe [Argued]
Robert M. Falin
Montgomery County Office of District Attorney
P.O.Box 311
Norristown, PA 19404
Counselfor Appellees

OPINION OF THE COURT
McKEE, Circuit Judge,
Adam Rosen asks us to reverse the District Court’s
denial of his petition for habeas corpus.1 The Commonwealth
of Pennsylvania requested a psychiatric exam of Rosen in
preparation for his first murder trial, where he raised a
diminished capacity defense. After his first conviction was
overturned, he abandoned his diminished capacity defense.
Rosen argues that the second trial court violated his Fifth
Amendment right to remain silent when it ruled that his
statements from the court-ordered psychiatric exam were
admissible to impeach Rosen if he chose to testify at his second
trial. After electing not to testify, Rosen was again convicted
of murder. Because Rosen cannot demonstrate that using his
statements to the Commonwealth’s psychiatric expert at the
second trial for the limited purpose of impeachment would
violate clearly established Fifth Amendment law, we will
affirm the District Court’s dismissal.
I. FACTS AND PROCEDURAL HISTORY
A. Factual Background
On June 30, 2001, Adam Rosen stabbed his wife, Hollie
Rosen, to death in their home.2 Thereafter, Rosen called the
police and claimed that masked intmders had invaded his home
and stabbed his wife.3 However, within several hours, he
confessed to the stabbing but claimed it was an unintentional

i

28 U.S.C. § 2254.
2 Rosen v. Kerestes, Civil Action No. 15-4539, 2017 U.S.
Dist. LEXIS 179378, at *2 (E.D. Pa. Oct. 25, 2017).
3 Id.
2

Case: 18-3111

Document: 104

Page: 3

Date Filed: 08/26/2020

response to his wife swinging a knife at him.4 According to
Rosen, he and his wife had been arguing in the kitchen that
morning when she nicked him on the neck and stomach with a
knife.5 He claimed he followed her upstairs and then blacked
out. The next thing he said he remembered was seeing his
severely wounded wife on the bedroom floor. Hollie Rosen
died of stab wounds to her back, neck, and chest.6 Adam Rosen
was arrested and charged with first degree murder.7
B. Rosen’s First and Second Murder Trials
At his first trial, Rosen presented a diminished capacity
defense.8 In support of his defense, Rosen retained and was
evaluated by psychiatrist Dr. Paul Fink.9 The trial court granted
the Commonwealth’s motion to have Rosen evaluated by its
own expert, Dr. Timothy Michals, in order to rebut the
diminished capacity defense.10 The record does not show that
he was Mirandized prior to this evaluation.11 Dr. Fink testified
4 Id. at *2-3, *6; Rosen Br. 2.
5 This version of events is based on Rosen’s statements to
his psychiatric expert. A121-22.
6 A122; see also Rosen, 2017 U S. Dist. LEXIS 179378, at
*2.

7 A69.
8
Rosen, 2017 U.S. Dist. LEXIS 179378, at *3.
9 Id.
10 Id.
11 Rosen claims that Dr. Michals did not administer
Miranda warnings before Rosen’s interview, and that he
did not waive his right to remain silent. The
Commonwealth, on the contrary, argues that Dr. Michals
administered Miranda warnings and sought a waiver from
Rosen before examining him. The Commonwealth bears
the burden of establishing waiver and offers little to show
that Rosen was indeed given a comprehensive set of
warnings and thereafter knowingly and voluntarily waived
his right to remain silent. See Commonwealth v. Rosen, 42
A.3d 988, 1001 (Pa. 2012) (Saylor, J., dissenting)
(explaining that the Commonwealth did not argue or brief
waming-as-waiver issues below and therefore cannot rely
on waiver as a basis for admitting Rosen’s statements to
Dr. Michals); see also Gibbs v. Frank, 387 F.3d 268, 274
(3d Cir. 2004) (explaining that a compelled psychiatric
3

Case: 18-3111

Document: 104

Page: 4

Date Filed: 08/26/2020

at trial that Rosen was incapable of forming the intent to kill
due to his manic-depressive mental illness, accompanied by
psychotic features and paranoia, and the stress caused by the
volatile deterioration of his marriage.12 Dr. Michals, on the
other hand, testified that Rosen did not have a mental disorder
that impaired his ability to form the specific intent to kill.13 Dr.
Michals also testified that discrepancies between the
statements Rosen made to the two psychiatric experts and
Rosen’s changing version of events—including his initial false
statement about the home invaders—demonstrated that Rosen
was self-serving.14 Rosen did not testify in his own defense and
the jury convicted him of first-degree murder.15
After Rosen was granted a new trial for reasons
unrelated to this appeal, he abandoned his diminished capacity
defense and notified the Commonwealth that he did not intend
to call a mental health expert.16 This time, Rosen planned to
testify in his defense and argue that he did not premeditate or
have the deliberate, willful intent to kill his wife.17
Nevertheless, the Commonwealth filed a motion in limine
seeking to admit Rosen’s statements to Dr. Michals about
killing his wife and those in which Rosen admitted he
previously attempted to rape her.18 The trial court ruled that
Rosen’s statements could not be used as substantive evidence
in the Commonwealth’s case-in-chief, but that the
Commonwealth could use the statements to impeach Rosen if

interview implicates the Fifth Amendment and therefore
the defendant-subject is entitled to Miranda warnings).
Assuming arguendo that Rosen was not given Miranda
warnings and did not waive his right to remain silent,
Rosen still fails to establish that he is entitled to relief.
12 Rosen, 42 A.3d at 990; A199-120.
13 Rosen, 42 A.3d at 990.
14 A150-51; see also Rosen Br. 4.
15 A70; Rosen, 2017 U.S. Dist. LEXIS 179378, at *3.
16 Rosen, 2017 U.S. Dist. LEXIS 179378, at *4.
17 A191; Rosen Br. 7.
18 A75. Rosen also submitted a motion in limine seeking to
exclude the testimony, and the trial court held oral
argument on the cross-motions. Rosen, 42 A.3d at 991.
4

Case: 18-3111

Document: 104

Page: 5

Date Filed: 08/26/2020

he testified.19 After the trial court’s ruling, Rosen changed his
mind and chose not to testify at the ensuing bench trial.20 At
that trial, Rosen was convicted of first-degree murder and
sentenced to life in prison without the possibility of parole.
C. Pennsylvania Supreme Court Ruling
After the Pennsylvania Superior Court affirmed the
conviction, the Pennsylvania Supreme Court granted allocatur
review on the question of “[wjhether the limited Fifth
Amendment waiver occasioned by a mental health defense in
a defendant’s first trial allows the Commonwealth to use the
evidence obtained pursuant to such waiver as rebuttal in a
subsequent trial where no mental health defense is
presented.”21 Based upon several Pennsylvania state cases and
Supreme Court law on the Fifth Amendment, the court
affirmed the trial court’s ruling on the motion in limine.
In Commonwealth v. Morley, 681 A.2d 1254 (Pa. 1996),
the court held that a defendant who raises a mental health
defense in Pennsylvania waives the privilege against self­
incrimination under the Fifth Amendment and can be
compelled to submit to an examination by the
Commonwealth’s
psychiatric
expert.
Likewise,
in
Commonwealth v. Sartin, 751 A.2d 1140 (Pa. 2000), the court
held that a defendant who intends to use the results of his or
her own psychiatric exam can be compelled to submit to
examination by an expert of the Commonwealth’s choosing for
the purpose of rebutting the defense.22 Reading Morley and
Sartin together with Commonwealth v. Santiago23 and
19 This oral ruling was not transcribed. Fortunately, the
parties agree on the trial court’s ruling. Rosen, 2017 U.S.
Dist. LEXIS 179378, at *14.
20 Rosen, 42 A.3d at 991.
21 Id. at 993.
22 Sartin also made clear that the Fifth Amendment waiver
only allowed the Commonwealth to use the results of its
exam to rebut those issues implicated by the defense’s own
expert. Sartin, 751 A.2d at 1143.
23 Commonwealth v. Santiago, 662 A.2d 610 (Pa. 1995)
(holding that a defendant who presents his own expert
5

Case: 18-3111

Document: 104

Page: 6

Date Filed: 08/26/2020

Commonwealth v. Boyle,24 the Pennsylvania Supreme Court
distilled the following rule: “[w]hen the defendant voluntarily
presents a mental health defense that he subsequently
abandons, the Commonwealth may, upon retrial, utilize the
results of its psychological examination as to those issues that
have been implicated by the defendant’s own expert.”25 The
court explained that because the Commonwealth could
introduce Dr. Fink’s testimony as substantive evidence, Dr.
Michals’ testimony “clearly could have been utilized in
response to those issues implicated by Dr. Fink’s testimony. >’26
Finally, the court found that any error would have been
harmless because, if Rosen had testified, “all of the
impeachment evidence could have been elicited solely from
Dr. Fink, who was in possession of the same mental health
records and reports that Dr. Michals possessed.”27 Rosen
“made admissions of guilt to both” experts and could have
been impeached by the admissible statements he made to Dr.
Fink.28 Therefore, “there is no reasonable possibility that the
error may have contributed to the verdict. ”29
D. District Court’s Ruling on Habeas Review
Rosen filed a habeas petition pursuant to 28 U.S.C. §
2254, arguing that the trial court’s ruling that his statements to
the Commonwealth’s psychiatric expert could be used to
impeach him violated his Fifth Amendment right to remain

psychiatric testimony at a first trial waives psychiatristpatient privilege with regard to his expert’s testimony at a
second trial where he no longer raises an insanity defense).
24 Commonwealth v. Boyle, 447 A.2d 250 (Pa. 1982)
(admitting defendant’s testimony from his first trial at a
subsequent trial where the defendant did not testify does
not violate the Fifth Amendment right to remain silent
because the constitutional privilege is waived).
25 Rosen, 42 A.3d at 997.
26 Id.
27 Id.
1%ld.
19 Id. at 998.
6

Case: 18-3111

Document: 104

Page: 7

Date Filed: 08/26/2020

silent.30 The District Court denied the petition, explaining that
Rosen failed to show that the Pennsylvania Supreme Court’s
conclusion that there was no Fifth Amendment violation ran
afoul of clearly established federal law.31 The court explained
that Rosen “relies on snippets from several Supreme Court
cases and a Third Circuit case, in an attempt to extrapolate
‘clearly established Federal law’ from general principles and
materially distinguishable holdings of the Supreme Court.”32
Thus, the District Court concluded that Rosen had failed to
overcome the deference owed to state court decisions under the
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA).33
II.

JURISDICTION AND STANDARD OF REVIEW
A. Jurisdiction

Rosen brought this habeas corpus action under 28
U.S.C. § 2254. The District Court had jurisdiction under 28
U.S.C. §§ 2241(a) and 2254(a). The order of the District Court
dismissing the petition is an appealable final order. The District
Court denied a certificate of appealability, but we later granted
one on Rosen’s claimed Fifth Amendment violation.34
Jurisdiction for this appeal arises under 28 U.S.C. § 1291 and
28 U.S.C. § 2253(c)(1).
B. Standard of Review under AEDPA
We exercise plenary review over the District Court’s
denial of Rosen’s habeas petition.35 The Pennsylvania
Supreme Court decided the Fifth Amendment issue on the
merits. Therefore, pursuant to 28 U.S.C. § 2254(d), AEDPA
requires Rosen to show that the state court ruling:
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
30 Rosen v. Kerestes, Civil Action No. 15-4539, 2018 WL
4030740 (E.D. Pa. Aug. 22, 2018).
31 Id. at *1 n.l.
32 Id.
33 Id.
34 A3.
35 Ross v. Dist. Atty. Allegheny Cnty., 672 F.3d 198, 205
(3d Cir. 2012).
7

Case: 18-3111

Document: 104

Page: 8

Date Filed: 08/26/2020

established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding.36
In Williams v. Taylor, 529 U.S. 362 (2000), the
Supreme Court elaborated on § 2254(d)(1), explaining:
Under the “contrary to” clause, a federal habeas
court may grant the writ if the state court arrives
at a conclusion opposite to that reached by this
Court on a question of law or if the state court
decides a case differently than this Court has on
a set of materially indistinguishable facts. Under
the “unreasonable application” clause, a federal
habeas court may grant the writ if the state court
identifies the correct governing legal principle
from this Court's decisions but unreasonably
applies that principle to the facts of the prisoner's
case.37
We have further explained that a state court decision is
“contrary to” clearly established law where “the Supreme
Court has established a rule that determines the outcome of the
petition. ”38 “ [I]t is not sufficient for the petitioner to show
merely that his interpretation of Supreme Court precedent is
more plausible than the state court’s; rather, the petitioner must
demonstrate that Supreme Court precedent requires the
contrary outcome. ”39
A state court’s decision is an “unreasonable
application” of clearly established law where “evaluated
objectively and on the merits, [it] resulted in an outcome that
cannot reasonably be justified under existing Supreme Court
precedent. In making this determination, mere disagreement
with the state court's conclusions is not enough to warrant
36 28 U.S.C. § 2254(d).
37 Williams v. Taylor, 529 U.S. 362, 412-13 (2000).
38 Matteo v. Superintendent, SCI Albion, 171 F.3d 877, 888
(3d Cir. 1999) (en banc), cert, denied 528 U.S. 824 (1999).
39 Id. (emphasis in the original).
8

Case: 18-3111

Document: 104

Page: 9

Date Filed: 08/26/2020

habeas relief.”40 Importantly, this entails a “substantially
higher threshold” than a federal court’s independent judgment
that the state court’s application of Supreme Court precedent
was incorrect.41 Instead, the state court’s application of federal
law must be objectively unreasonable, not merely incorrect.42
Section 2254(d)(2), in turn, sharply restricts the
circumstances in which a federal habeas court may grant relief
based on a state court’s factual determinations. The petitioner
must show that the state court verdict was based on an
unreasonable determination of the evidence and that a
reasonable factfinder could not have reached the same
conclusion 43
III. DISCUSSION
A. Rosen failed to demonstrate that using his
statements to the Commonwealth’s psychiatric
expert to impeach him at his second trial would be
contrary to or an unreasonable application of clearly
established Fifth Amendment law.
We have previously described our approach to §
2254(d)(1) as a two-step analysis whereby “federal habeas
courts first . . . identify whether the Supreme Court has
articulated a rule specific enough to trigger ‘contrary to’
review; and second, only if it has not,. . . evaluate whether the
state court unreasonably applied the relevant body of
precedent.”44 The plain language of § 2254(d)(1) applies to “a
decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law”—applying the
latter to both the “contrary to” and “unreasonable application”
prongs of § 2254(d)(1).45 As we acknowledged in Matteo, there
40 Id. at 890.
41 Renico v. Lett, 559 U.S. 766, 773 (2010) (citing Schriro
v. Landrigan, 550 U.S. 465, 473 (2007)).
42 Williams, 529 U.S. at 410
(“[A]n unreasonable application of federal law is different
from an incorrect application of federal law.”) (emphasis
in the original).
43 Campbell v. Vaughn, 209 F.3d 280, 291 (3d Cir. 2000).
44 Matteo, 171 F.3d at 888.
45 See Williams, 529 U.S. at 412 (“Under § 2254(d)(1), the
writ may issue only if one of the following two conditions
9

Case: 18-3111

Document: 104

Page: 10

Date Filed: 08/26/2020

is likely some overlap amongst the parts of § 2254(d)(1), “but
we must attempt to read the statute so that each has some
operative effect.... ”46
Accordingly, identifying an applicable principle of
clearly established Supreme Court law can be treated as a
prerequisite—or Step 0.5—to applying the two-step test from
Matteo. This approach is consistent with our decision in
Fischetti v. Johnson, where we explained that § 2254(d)(1)
“requires us to determine what the clearly established Supreme
Court decisional law was at the time petitioner’s conviction
became final[,]” and then “analyze the challenged state
decision in light of that decisional law under each of the two
prongs of the AEDPA test. ”47
“Clearly established” Supreme Court law “refers to the
holdings, as opposed to the dicta, of [the Supreme] Court’s
decisions as of the time of the relevant state-court decision.”48
Furthermore, in determining what is “clearly established,”
Supreme Court decisions cannot be viewed “at a broad level of
generality,” but instead must be viewed on a “case-specific
level.”49 The “clearly established Federal law” provision
requires Supreme Court decisions to be viewed through a
“sharply focused lens. ”50
is satisfied—the state-court adjudication resulted in a
decision that (1) ‘was contrary to . . . clearly established
Federal law, as determined by the Supreme Court of the
United States,’ or (2) ‘involved an unreasonable
application of. . . clearly established Federal law, as
determined by the Supreme Court of the United States.’”).
While Matteo was decided before Williams, we have since
affirmed that the analytical framework from Matteo
remains applicable. See Werts v. Vaughn, 228 F.3d 178,
197 (3d Cir. 2000).
46 Matteo, 171 F.3d at 888; see also Lindh v. Murphy, 521
U.S. 320, 336 (1997) (“[I]n a world of silk purses and pigs’
ears, [AEDPA] is not a silk purse of the art of statutory
drafting.”).
47 Fischetti v. Johnson, 384 F.3d 140, 148 (3d Cir. 2004).
48
Williams, 529 U.S. at 412.
49 Fischetti, 384 F.3d at 148.
50 Id. at 149.
10

Case: 18-3111

Document: 104

Page: 11

Date Filed: 08/26/2020

1. Clearly Established Supreme Court Law on the Fifth
Amendment
Rosen claims that it is clearly established federal law
that impeaching a defendant using evidence from the
government’s mental health expert after a mental health
defense is abandoned violates the Fifth Amendment. Rosen
draws this proposed principle primarily from three Supreme
Court cases: Estelle v. Smith, 451 U.S. 454 (1981); Buchanan
v. Kentucky, 483 U.S. 402 (1987); and Kansas v. Cheever, 571
U.S. 87 (2013). Rosen further relies on our decision in Gibbs
v. Frank, 387 F.3d 268 (3d Cir. 2004), although he concedes
that Gibbs is not clearly established Supreme Court law.51
Rosen primarily relies upon Estelle v. Smith. There, the
Supreme Court held that a “criminal defendant, who neither
initiates a psychiatric evaluation nor attempts to introduce any
psychiatric evidence, may not be compelled to respond to a
psychiatrist if his statements can be used against him at a
capital sentencing proceeding.”52 The trial judge had sua
sponte ordered an evaluation to determine the defendant’s
competency to stand trial.53 The prosecution later used
statements from that exam in a capital sentencing proceeding
as evidence of the defendant’s future dangerousness.54 The
defendant was sentenced to death.55 On appeal, the Supreme
Court reversed the sentence. It held that the Fifth Amendment
precluded the use of the defendant’s compelled statements
51 The state court judgment must not merely be contrary to
law as articulated by any federal court; rather “[i]t must
contradict ‘clearly established’ decisions of the United
States Supreme Court alone.” Fischetti, 384 F.3d at 147.
However, “[i]n determining whether a state decision is an
unreasonable application of Supreme Court precedent, this
court has taken the view that decisions of federal courts
below the level of the . . . Supreme Court may be helpful. .
. in ascertaining the reasonableness of state courts’
application of clearly established .. . Supreme Court
precedent.” Id. at 149 (internal quotation marks and
citation omitted).
52 Estelle, 451 U.S. at 468.
53 Id. at 456-57.
54 Id. at 459-60.
55 Id. at 460.
11

Case: 18-3111

Document: 104

Page: 12

Date Filed: 08/26/2020

against him at the penalty phase where he introduced no
psychiatric evidence in his defense.56 The Court emphasized
the compelled nature of the defendant’s statements, which
were given in custody, pursuant to a court order, without
counsel present, and in the absence of Miranda warnings.57
Because the defendant was compelled to submit to the
evaluation and had not attempted to introduce any psychiatric
evidence of his own, the statements were inadmissible unless
the psychiatrist apprised the defendant of his rights and
obtained a valid waiver before questioning him.58
Rosen also relies on Buchanan v. Kentucky, 483 U.S.
402 (1987). In Buchanan, the defendant raised an extreme
emotional disturbance defense at his murder trial and called his
former social worker to testify in his defense.59 The prosecutor
cross-examined the social worker using the report from a courtordered exam that defense counsel and the prosecutor had
jointly requested for the purpose of seeking mental health
treatment for the defendant.60 The Supreme Court found no
Fifth Amendment violation, explaining that “if a defendant
requests such an evaluation or presents psychiatric evidence,
then, at the very least, the prosecution may rebut this
presentation with evidence from the reports of the examination
that the defendant requested.”61 The Court distinguished
Estelle because defense counsel here had jointly requested the
exam and the defendant had placed his own mental health at
issue.62 The Court concluded that “[t]he introduction of such a
report for this limited rebuttal purpose does not constitute a
Fifth Amendment violation.”63

56 Mat 468.
57 Id. at 468-69.
58 Id. As we have noted, we will assume arguendo that
Rosen likewise was not apprised of his rights and did not
waive his right to remain silent before his psychiatric
exam.
59 Buchanan, 483 U.S. at 408-09.
60 Id. at 409-11.
61 Mat 422-23.
62 Mat 423.
63 Id. at 423-24.
. 12

Case: 18-3111

Document: 104

Page: 13

Date Filed: 08/26/2020

The Supreme Court in Kansas v. Cheever, 571 U.S. 87
(2013), applying Buchanan, found that the Fifth Amendment
allowed the prosecution to introduce statements from a
compelled mental health evaluation to rebut a mental health
defense.64 At his murder trial, the defendant in Cheever offered
a psychiatric expert to support his defense that voluntary
intoxication had rendered him incapable of premeditation.65
The state offered rebuttal testimony from the defendant’s
court-ordered psychiatric examination.66 The Supreme Court
held: “where a defense expert who has examined the defendant
testifies that the defendant lacked the requisite mental state to
commit a crime, the prosecution may offer evidence from a
court-ordered psychological examination for the limited
purpose of rebutting the defendant’s evidence.”67 The Court
explained that once a defendant presents expert psychological
evidence, the government cannot be denied “the only effective
means of challenging that evidence: testimony from an expert
who has also examined him.”68 The Court emphasized that the
compelled testimony was used “only after” the defendant
placed his mental health at issue and for the purpose of
rebutting the mental health defense.69
Although our decision in Gibbs is not Supreme Court
law, it is the most factually analogous case to Rosen’s and
assists our inquiry into what is “clearly established” Fifth
Amendment law in this court.70 There, Gibbs raised a mental

64 Cheever, 571 U.S. at 93-95.
65 Id. at 91.
66 Id. at 91-92.
61 Id. at 98.
68 Id. at 94.
69 Id. at 95.
70 Fischetti, 384 F.3d at 149 (“In determining whether a
state decision is an unreasonable application of Supreme
Court precedent. . . decisions of federal courts below the
level of the . . . Supreme Court may be helpful... in
ascertaining the reasonableness of state courts’ application
of clearly established . . . Supreme Court precedent.”)
(internal quotation marks and citation omitted). And while
the Pennsylvania Supreme Court is not bound by Gibbs, it
is a binding precedent in the District Court with respect to
13

Case: 18-3111

Document: 104

Page: 14

Date Filed: 08/26/2020

infirmity defense at his first murder trial.71 The
Commonwealth’s expert, Dr. Sadoff, testified at the first trial
to rebut Gibbs’ expert testimony on diminished capacity.72
That testimony introduced several inculpatory statements
Gibbs made during the court-ordered exam.73 After his
conviction was overturned on other grounds, Gibbs decided not
to raise a mental health defense at his second trial. Instead, he
contested the identity of the shooter.74 Nevertheless, the trial
court allowed Sadoff to testify during the Commonwealth’s
case-in-chief.75 That testimony included Gibbs’ inculpatory
statements to Sadoff during his psychiatric interview.76 On
habeas review, we found that the trial court’s decision, as
affirmed by the Pennsylvania Superior Court, was an
unreasonable application of clearly established Supreme Court
law and granted Gibbs’ habeas petition.77 Importantly, we
granted the petition based on the limited scope of the Miranda
warnings given to Gibbs, which misstated the consequences of
his Fifth Amendment waiver—an issue not relevant to Rosen’s
appeal.78 However, we also stated that if Gibbs had not been
Mirandized at all—as Rosen claims he was not—“the state
ruling admitting the Gibbs interview in the second trial [would
be] contrary to [.Estelle v.] Smith itself.”79 In justifying this
conclusion, we explained that “Sadoff was permitted to testify
in the prosecution case in chief... simply to repeat
incriminating statements that Gibbs had made.”80 This was
problematic because those statements were offered “simply for
the truth of the admissions of fact” and “not even to prove a
psychological point, since the second trial presented no
psychological issue before Sadoff testified. ”81
what constitutes an unreasonable application of Fifth
Amendment law on habeas review.
71 Gibbs, 387 F.3d at 271.
72 Id.
73 Id.
74 Id.
15 Id.
16 Id.
77 Id. at 277.
78 Id. at 276.
19 Id. at 275.
80
Id.
81 Id.
14

Case: 18-3111

Document: 104

Page: 15

Date Filed: 08/26/2020

2. Application of Clearly Established Law to Rosen
Having reviewed the relevant Supreme Court law
through “a sharply focused lens[,]” we cannot conclude that
there is a directly applicable Supreme Court precedent that
would preclude the Commonwealth from using Rosen’s
statements against him at his second trial for the limited
purpose of impeachment.82 Rosen attempts to extrapolate a
principle of Fifth Amendment law from the similar yet
materially distinguishable cases we have just discussed.83
However, AEDPA’s deferential standard of review demands
more than this jigsaw approach. We therefore cannot find that
the Pennsylvania Supreme Court’s decision was either
“contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme
Court. . . .”84
The rule from Estelle—that a “criminal defendant, who
neither initiates a psychiatric evaluation nor attempts to
introduce any psychiatric evidence, may not be compelled to
respond to a psychiatrist if his statements can be used against
him at a capital sentencing proceeding”—is far too narrow to
help Rosen here.85 Rosen both initiated an evaluation and
introduced psychiatric evidence at his first criminal trial. It is
undisputed that the Commonwealth could compel Rosen to be
examined by its own expert for the purposes of preparing a
rebuttal in the first trial.86 The Estelle Court expressly
82 Fischetti, 384 F.3d at 149.
83 We reiterate that cases Rosen relies upon are materially
distinguishable, such that we can identify discrete issues
the Supreme Court has not yet addressed. It would not be
enough to point to irrelevant or meaningless differences.
See Matteo, 171 F.3d at 888 (emphasizing that the
petitioner is not required “to cite factually identical
Supreme Court precedent”). The bar for relief under
AEDPA is high but must not be insurmountable lest we
effectively close the door to all relief on habeas. AEDPA
requires that we defer, not that we abdicate.
84
28 U.S.C. § 2254(d)(1).
85 Estelle, 451 U.S. at 468.
86
A529 (“Federal courts have consistently reiterated . . .
that when a defendant places his mental status at issue, his
15

Case: 18-3111

Document: 104

Page: 16

Date Filed: 08/26/2020

acknowledged that “a different situation arises where a
defendant intends to introduce psychiatric evidence” and
expressed concern about the government’s ability to rebut such
evidence.87 Viewed through a “sharply focused lens,” Estelle
speaks only to the Fifth Amendment rights of someone who
never raises a mental health defense and not to the scope of the
Fifth Amendment waiver for someone, like Rosen, who raises
and presents an unsuccessful mental health defense that he later
abandons.88 The Pennsylvania Supreme Court could thus rely
on Commonwealth v. Boyle to find that the Fifth Amendment
waiver triggered by Rosen’s mental health defense at his first
trial extended to his second trial, at least with respect to the
issues raised by his own expert. 89
Buchanan is even less helpful to Rosen. There, the
defense had joined in the request for the psychiatric evaluation
and therefore the defendant’s statements did not result from an
involuntary examination. Rosen stresses the phrase “limited
Fifth Amendment privilege against self-incrimination is
not violated by a court-ordered psychiatric examination.”);
see also Rosen, 42 A.3d at 996-97 (discussing Morley and
Sartin).
87 Estelle, 451 U.S. at 472; see also id. at 465 (“When a
defendant asserts the insanity defense and introduces
supporting psychiatric testimony, his silence may deprive
the State of the only effective means it has of controverting
his proof on an issue that he interjected into the case.”).
88
Penny v. Johnson, 532 U.S. 782, 795 (2001) (noting that
the Supreme Court has “never extended Estelle's Fifth
Amendment holding beyond its particular facts”).
89
447 A.2d 250 (Pa. 1982). In Boyle, the Pennsylvania
Supreme Court held that a defendant who testifies at his
first trial waives his Fifth Amendment privilege and cannot
reclaim it at a later trial on the same indictment, even
where he declines to testify. Id. at 256. Without endorsing
this decision or its application to Rosen, we merely note
that the Pennsylvania Supreme Court could reasonably,
even if incorrectly, determine that Rosen waived his Fifth
Amendment privilege at his first trial by introducing expert
psychiatric testimony regarding his mental health, and .that
this waiver transferred to his second trial despite the
abandonment of his mental health defense.
16

Case: 18-3111

Document: 104

Page: 17

Date Filed: 08/26/2020

rebuttal purpose” to conclude that “[t]he Buchanan [c]ourt
could avoid the Fifth Amendment problem only because of this
limitation on the use of such evidence.”90 Rosen therefore
proposes that Buchanan “clearly establishes” that psychiatric
evidence is only admissible to rebut the defendant’s mental
health defense. This inference is not supported by either the
text or reasoning of Buchanan. The Court explicitly stated that
the psychiatric evidence there was admissible “at the very
least” to rebut a mental health defense. The Court’s focus was
on the voluntary nature of the examination jointly requested by
the defense.91 Buchanan leaves open the scope of a Fifth
Amendment waiver triggered by a defendant’s mental health
defense. For example, Buchanan does not address what would
happen if the defense was raised and later abandoned, or
whether the waiver applies to involuntary examinations
compelled by the government.
The most compelling Supreme Court support for
Rosen’s proposed principle of Fifth Amendment law comes
from Cheever. The reasoning in Cheever focuses on the
defendant placing his mental health at issue through his own
evidence, and the right of the prosecution to rebut such
evidence. The Supreme Court referred several times to the
evidence being admissible for the “limited purpose of
rebutting” the defense’s mental health defense. Citing to
Buchanan, the Court explained that it previously “held that
testimony based on a court-ordered psychiatric evaluation is
admissible only for a ‘limited rebuttal purpose. ’”92
According to Rosen, Cheever established that
compelled testimony from the government’s psychiatric expert
is only admissible to the extent it directly rebuts psychiatric
90 Rosen Br. 27.
91 Buchanan, 483 U.S. at 422; see also id. at 424 (“Here, in
contrast [to Estelle], petitioner's counsel himself requested
the psychiatric evaluation . . . .”).
92 Cheever, 571 U.S. at 97; see also id. at 93-94 (“The rule
of Buchanan, which we reaffirm today, is that where a
defense expert who has examined the defendant testifies
that the defendant lacked the requisite mental state to
commit an offense, the prosecution may present
psychiatric evidence in rebuttal.”).
17

Case: 18-3111

Document: 104

Page: 18

Date Filed: 08/26/2020

evidence presented by the defendant. Yet, even this narrow
reading of Cheever does not touch on several vital aspects of
Rosen’s case. Therefore, we cannot conclude that it clearly
established an applicable precedent. Cheever, for example,
does not address whether impeaching the defendant with
statements from the compelled exam, if he chose to testify,
would constitute a proper “rebuttal purpose.” In fact, Cheever
alluded to limitations on the Fifth Amendment protections for
testifying defendants.93 The Court further explained that
precluding the use of compelled psychiatric testimony “would
undermine the adversarial process, allowing a defendant to
provide the jury, through an expert operating as proxy, with a
one-sided and potentially inaccurate view of his mental state at
the time of the alleged crime, ”94 These concerns about the
integrity of the judicial process and fairness to the government
undermine Rosen’s claim that he should have been allowed to
testify at his second trial without impeachment by his own
prior inconsistent statements. Nor does Cheever touch on
whether the proper admission of testimony for a “limited
rebuttal purpose” at one trial constitutes a Fifth Amendment
waiver in future proceedings where the mental health defense
is abandoned.95
Given the limitations of AEDPA, the absence of
Supreme Court precedent addressing the use of compelled
statements given to the government’s mental health expert as
impeachment evidence is fatal to Rosen’s claim here. As we
have noted, the second trial court ruled that Rosen’s compelled
statements were inadmissible as substantive evidence and
admissible only for the limited purpose of impeachment in the
event Rosen testified. Estelle, Buchanan, and Cheever address
situations where the government sought to admit the
93 Id. at 94 (“The admission of this rebuttal testimony
harmonizes with the principle that when a defendant
chooses to testify in a criminal case, the Fifth Amendment
does not allow him to refuse to answer related questions on
cross-examination. ”).
94 Id.
95 See Boyle, 447 A.2d at 256 (acknowledging that a
defendant who testifies in one trial and thus waives his
Fifth Amendment privilege cannot object to the admission
of testimony at a later trial even where he does not testify).
18

Case: 18-3111

Document: 104

Page: 19

Date Filed: 08/26/2020

defendant’s statements to prove or disprove a contested
issue—such as the defendant’s future dangerousness, intent, or
mental state. However, there was no indication in any of these
cases that the defendant intended to testify and was precluded
from doing so by the prospect of impeachment by compelled
statements.96 Therefore they do not address the admissibility of
a defendant’s statements for the purpose of impeaching the
defendant.
Even Gibbs, with its otherwise striking factual
similarity to Rosen’s circumstances, is distinguishable on this
point. The testimony of the Commonwealth’s expert in Gibbs
was introduced “in the prosecution [case-in-chief]... simply to
repeat incriminating statements” made by the defendant and
offered “simply for the truth” of the matters asserted.97 In
contrast, Rosen’s second trial court specifically found that Dr.
Michals’ testimony was inadmissible in the case-in-chief and
would be allowed solely for the purpose of impeachment if
Rosen chose to testify. Impeachment evidence is not offered to
prove the truth of the matter asserted, but rather is offered to

96 Because we deny Rosen’s petition on other grounds, we
do not reach the issue of whether the state court’s ruling on
the motion in limine effectively denied Rosen his right to
testily, or whether he forfeited his right to appeal the Fifth
Amendment issue by electing not to testify. Compare Luce
v. United States, 469 U.S. 38, 41-43 (1984) (holding that a
defendant failed to preserve an issue for appeal where the
trial court ruled that he could be impeached with a prior
conviction under Fed. R. Evid. 609(a) and he thereafter
declined to testify), with New Jersey v. Portash, 440 U.S.
450, 454 (rejecting state’s claim that defendant’s Fifth
Amendment challenge to the trial court’s ruling that his
immunized testimony could be used as impeachment
evidence is too “abstract and hypothetical” to review
because defendant did not take the stand); and Brooks v.
Tennessee, 406 U.S. 605, 612 (1972) (reviewing a state
statute requiring a testifying defendant to testify first at his
trial, despite the petitioner choosing not to testify because
of the statute, and finding it violates the Fifth
Amendment).
97 Gibbs, 387 F.3dat 275.
19

Case: 18-3111

Document: 104

Page: 20

Date Filed: 08/26/2020

impugn the credibility of the person testifying.98 Moreover, the
jury can be specifically instructed that impeachment evidence
may be considered only for that limited purpose and cannot be
considered as substantive evidence of the defendant’s mental
state or intent.99
The trial court’s ruling that Rosen’s statements could be
used only for impeachment is a material distinction on habeas
review under AEDPA. There is reason to believe that the
Supreme Court might treat impeachment by compelled
statements differently than the admission of such testimony as
substantive evidence in Rosen’s situation. In Harris v. New
York, the Supreme Court held that statements obtained in
violation of the Fifth Amendment under Miranda are still
admissible for the purposes of impeachment, even though such
statements are inadmissible as substantive evidence.100 The
Supreme Court explained that the right of the defendant to
testify “cannot be construed to include the right to commit
perjury[,]” and therefore “[hjaving voluntarily taken the stand,
[the defendant] was under an obligation to speak truthfully and
accurately, and the prosecution ... did no more than utilize the
traditional truth-testing device[]” of impeachment by the
defendant’s own inconsistent statements.101 On the other hand,
98

Impeachment evidence, BLACK’S LAW DICTIONARY
(11th ed. 2019) (“Evidence used to undermine a witness’s
credibility.”).
99 Because Rosen elected a bench trial and chose not to
testify, such an instruction was not necessary here.
However, the possibility of giving such an instruction in a
similar case is relevant to distinguishing between the use of
evidence for substantive versus impeachment purposes. In
addition, a judge at a bench trial would understand that she
could not consider impeachment evidence for any purpose
other than assessing a witness’s credibility.
100
Harris v. New York, 401 U.S. 222, 226 (1971) (“The
shield provided by [Miranda] cannot be perverted into a
license to use perjury by way of a defense, free from the
risk of confrontation with prior inconsistent utterances.”).
101
Id. at 225; see also United States v. Havens, 446 U.S.
620, 626 (1980) (explaining that “the deterrent function of
the rules excluding unconstitutionally obtained evidence is
sufficiently served by denying its use to the government on
20

Case: 18-3111

Document: 104

Page: 21

Date Filed: 08/26/2020

coerced statements—such as where “the [speaker] is told to
talk or face the government’s coercive sanctions[]”—are
deemed involuntary and therefore inadmissible for any
purpose, including impeachment. 102
A court-ordered psychological or psychiatric exam, like
a custodial police interrogation, is an inherently coercive
situation. To the extent the District Court concluded that
Rosen’s “statements to Dr. Michals cannot be deemed
involuntary, coerced, or compelled since he voluntarily raised
the mental health defense[,]” we cannot agree, 103 Rosen’s
statements, given while in custody, under court order, without
the benefit of Miranda warnings, are compelled testimony
under the Fifth Amendment.104 Nevertheless, whether
its direct case” and therefore allowing the government to
impeach a testifying defendant using evidence
inadmissible in the case-in-chief).
102 Portash, 440 U.S. at 459 (holding that testimony given
in response to a grant of legislative immunity is “coerced
testimony” because the person must testify or potentially
face contempt charges, and under such circumstances
“there is no question whether physical or psychological
pressures overrode the defendant’s will”); see also Kansas
v. Veniris, 556 U.S. 586, 590 (2009) (“The Fifth
Amendment guarantees that no person shall be compelled
to give evidence against himself, and so is violated
whenever a truly coerced confession is introduced at trial,
whether by way of impeachment or otherwise.”); Mincey v.
Arizona, 437 U.S. 385, 398-402 (1978) (holding that a
statement taken from a defendant while he was
hospitalized and in intensive care, slipping in and out of
consciousness, and in “unbearable” pain was inadmissible,
even for impeachment, because the statement was not “the
product of his free and rational choice”).
103
Rosen, 2018 WL 4030740, at *1 n.l.
104
Estelle, 451 U.S. at 467, 469 (“The considerations
calling for the accused to be warned prior to custodial
interrogation apply with no less force to the pretrial
psychiatric examination” because an examination “while in
custody with a court-ordered psychiatric” expert is “not
given freely and voluntarily without any compelling
influences.”) (internal quotation marks and citation
21

Case: 18-3111

Document: 104

Page: 22

Date Filed: 08/26/2020

testimony given to a psychiatrist under court order is “truly
coerced” and therefore involuntary, or merely compelled in the
same sense as a statement given to police in violation of
Miranda (and therefore still admissible for impeachment), is
yet to be determined by the Supreme Court. 105
Nor do we decide today whether Rosen’s statements
were voluntary or involuntary under the Fifth Amendment.
Rather, we merely conclude that the Pennsylvania Supreme
Court’s decision approving of the trial court’s admissibility
ruling is not contrary to or an unreasonable application of an
ambiguous area of Fifth Amendment law.106 This is not to say
that Rosen’s interpretation of the Fifth Amendment is not
plausible, or even compelling.107 However, such a rule is not
omitted); see also Gibbs, 387 F.3d at 274 (affirming that
Miranda warnings apply to court-compelled psychiatric
interviews). And unlike in the Miranda context, the only
way Rosen could remain silent was to forfeit his mental
health defense at trial. See Morley, 681 A.2d at 1258, 1258
n.5 (holding that a defendant who raises a mental infirmity
defense “may not refuse to allow the Commonwealth
psychiatrist to examine him or her on the basis that it
violates the defendant’s privilege against self­
incrimination” and “may be compelled to submit to a
psychiatric exam”).
105
Compare Ventris, 556 U.S. at 590 (“The Fifth
Amendment... is violated whenever a truly coerced
confession is introduced at trial, whether by way of
impeachment or otherwise.”), and Portash, 440 U.S. at 458
(distinguishing Harris because there the defendant made
no claim that his statements obtained in violation of
Miranda were coerced or involuntary), with Harris, 401
U.S. at 224 (admitting statement obtained in violation of
Miranda for the purpose of impeachment where
“[petitioner makes no claim that the statements made to
the police were coerced or involuntary”).
106
See Mitchell v. Esparza, 540 U.S. 12, 17 (2003)
(denying habeas petition where “precedent from [the
Supreme] Court is, at best, ambiguous”).
107
Rosen Br. 31-32 (arguing that testimony a defendant is
compelled to give to the government’s expert is admissible
only for the limited purpose of rebutting a psychological
22

Case: 18-3111

Document: 104

Page: 23

Date Filed: 08/26/2020

yet “clearly established.” Rosen’s credible argument about
where the Supreme Court should draw the line between cases
such as Harris and Portash does not satisfy the deferential
standard under AEDPA.108 It is not enough that Rosen’s
argument is persuasive; it must be required by law and the state
court’s contrary decision must not just be incorrect, but
unreasonable.109
B. Because there is no clear Fifth Amendment
violation, Rosen failed to demonstrate that he is
entitled to relief under § 2254(d)(2).
Rosen also argues that he is entitled to relief under 28
U.S.C. § 2254(d)(2) because the Pennsylvania Supreme
Court’s harmlessness analysis was based on “an unreasonable
determination of the facts in light of the evidence presented. ”110
defense and therefore inadmissible once that defense is
abandoned, even for garden variety impeachment); see
also Gibbs, 387 F.3d at 274 (explaining that the Fifth
Amendment waiver triggered by a mental health defense
“is not limitless; it only allows the prosecution to use the
interview to provide rebuttal to the psychiatric defense”).
108
Carey v. Musladin, 549 U.S. 70, 77 (2006) (holding that
a state court’s decision is not contrary to or an
unreasonable application of federal law where there is no
Supreme Court holding that would require a different
outcome).
109
Matteo, 171 F.3d at 888 (“[I]t is not sufficient... to
show merely that [petitioner’s] interpretation of Supreme
Court precedent is more plausible than the state court’s;
rather, the petitioner must demonstrate that Supreme Court
precedent requires the contrary outcome. This standard
precludes granting habeas relief solely on the basis of
simple disagreement with a reasonable state court
interpretation of the applicable precedent.”); see also
Williams, 529 U.S. at 411 (“[A] federal habeas court may
not issue the writ simply because that court concludes in its
independent judgment that the relevant state-court decision
applied clearly established federal law erroneously or
incorrectly. Rather, that application must also be
unreasonable.”).
110
This claim was not raised in the District Court and we
could therefore deem the argument waived. See Nelson v.
23

Case: 18-3111

Document: 104

Page: 24

Date Filed: 08/26/2020

Rosen argues that the court improperly conflated the testimony
given to Dr. Fink with that given to Dr. Michals in concluding
that “the same admissions could have been established by
either expert’s testimony[.] »iii Based on that conclusion, the
Pennsylvania Supreme Court held that since Dr. Fink’s
testimony was indisputably admissible, “there is no reasonable
possibility that the error may have contributed to the
verdict. ”112 However, Rosen is correct that there are significant
discrepancies between the statements that he gave to the two
experts. In fact, Dr. Michals testified to these discrepancies
during Rosen’s first trial in order to suggest that Rosen was
self-serving and challenge Rosen’s inconsistent version of
events.113 It is therefore unlikely that, if Rosen had testified,
“all of the impeachment evidence could have been elicited
solely from Dr. Fink, who was in possession of the same
mental health records and reports that Dr. Michals
possessed. ”114
Nevertheless, Rosen’s challenge to the harmlessness
analysis is predicated on a finding that there was indeed a Fifth
Amendment violation. Consequently, rebutting the state
court’s harmlessness analysis is a necessary but not sufficient
basis for relief. As we discussed above, we cannot conclude
that the Pennsylvania Supreme Court’s decision violated
Rosen’s clearly established Fifth Amendment rights. We
therefore need not delve into whether any such hypothetical
error was prejudicial to Rosen at trial.
IV.

CONCLUSION

Adams USA, Inc., 529 U.S. 460, 469 (2000) (noting that
“[i]t is indeed the general rule that issues must be raised in
lower courts in order to be preserved as potential grounds
of decision in higher courts”); Singleton v. Wulff, 428 U.S.
106, 120 (1976) (noting that “[i]t is the general rule . ..
that a federal appellate court does not consider an issue not
passed upon below”). However, we can within our
discretion choose to take up the issue on appeal and will do
so briefly to dismiss the claim on the merits. Id. at 121.
in Rosen, 42 A.3d at 998.
112 Id.
113 A149-50; Rosen Br. 35-40.
114 Rosen, 42 A.3d at 997.
24

Case: 18-3111

Document: 104

Page: 25

Date Filed: 08/26/2020

For the foregoing reasons, we will affirm the District
Court’s denial of the petition for habeas corpus.

25

Case 2:15-cv-04539-NIQA Document 34 Filed 08/22/18 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

ADAM ROSEN
Petitioner

NO. 15-4539
v.
JOHN KERESTES, et al.
Respondents

ORDER
AND NOW, this 22nd day of August 2018, upon consideration of the pleadings and record
herein, including, inter alia, the petition for writ of habeas corpus filed by Petitioner Adam Rosen
(“Petitioner”) pursuant to 28 U.S.C. § 2254 (the “Petition”), [ECF 1], Petitioner’s memorandum of law
in support thereof, [ECF 9], the response to the Petition filed by Respondents, [ECF 24], the state court
record; the Report and Recommendation (the “R&R”) issued by the Honorable David R. Strawbridge,
United States Magistrate Judge (“the Magistrate Judge”), [ECF 26], recommending that the Petition be
denied; and Petitioner’s objections to the R&R, [ECF 31], and after conducting a de novo review of the
objections, it is hereby ORDERED that:
1.

The Report and Recommendation (the “R&R”) is APPROVED and ADOPTED;

2.

The objections to the R&R are without merit and are OVERRULED; l

In his Petition, Petitioner asserts two claims; to wit; that the trial court essentially violated his Fifth
Amendment rights when it denied Petitioner’s motion in limine with respect to statements he made to
psychiatrists before his first trial; and that trial counsel provided ineffective assistance at his second trial by
failing to adequately respond to the testimony of one of the Commonwealth’s experts with respect to the injuries
of his wife, the victim of the murder of which he was convicted. In his objections to the R&R, Petitioner
disagrees with the Magistrate Judge’s findings and reiterates his claims and arguments in support thereof.
Petitioner’s objections, however, are nothing more than an attempt to re-litigate the various arguments raised in
his petition and memorandum of law in support. He essentially argues that the Magistrate Judge “sidestep[ped]
the constitutional issue presented” in his first claim and “put[] on blinders” in the analysis of Petitioner’s second
claim. This Court disagrees and finds that the Magistrate Judge thoroughly reviewed each of Petitioner’s
arguments in the twenty-six page R&R and correctly concluded that Petitioner’s claims were without merit.
This Court has further reviewed the pertinent portions of the record de novo and finds that no error was
committed by the Magistrate Judge in the analysis of Petitioner’s claims. Accordingly, the R&R is adopted and
approved in its entirety, and Petitioner’s objections are overruled. Notwithstanding this Court’s adoption of the
R&R, further analysis is provided with respect to Plaintiffs first habeas claim to address Petitioner’s contention

Case 2:15-cv-04539-NIQA Document 34 Filed 08/22/18 Page 2 of 7

that the Magistrate Judge failed to adequately address the Supreme Court precedents on which Petitioner relied
in his underlying petition.
As laid out in the R&R, the Antiterrorism and Effective Death Penalty Act (“AEDPA”) amended the
standards for reviewing state court judgments raised in federal habeas corpus petitions filed under 28 U.S.C.
§ 2254. Werts v. Vaughn, 228 F.3d 178, 195 (3d Cir. 2000). AEDPA increased the deference federal courts
must give to the legal determinations and factual findings of the state courts. Id. at 196. In accordance with
§ 2254(d), a habeas corpus petition may only be granted if the state court’s adjudication of the claim: “(1)
resulted in a decision that was contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States; or (2) resulted in a decision that was
based on an unreasonable determination of the facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d).
To establish that the state court decision was “contrary to” federal law, “it is not sufficient for the
petitioner to show merely that his interpretation of Supreme Court precedent is more plausible than the state
court’s; rather, the petitioner must demonstrate that Supreme Court precedent requires the contrary outcome.”
Matteo v. Superintendent, SCI Albion, 171 F.3d 877, 888 (3d Cir. 1999). The state court judgment must not
merely be contrary to law as articulated by any federal court; rather “[i]t must contradict ‘clearly established’
decisions of the United States Supreme Court alone.” Fischetti v. Johnson, 384 F.3d 140, 147 (3d Cir. 2004)
(citations omitted). In determining what is “clearly established,” Supreme Court decisions cannot be viewed “at
a broad level of generality,” but instead must be viewed on a “case-specific level.” Id. at 148. Further, the
“clearly established Federal law” provision requires Supreme Court decisions to be viewed through a “sharply
focused lens.” Id. at 149; see also Yarborough v. Alvarado, 541 U.S. 652, 666-67 (2004) (observing that “if a
habeas court must extend a rationale before it can apply to the facts at hand then the rationale cannot be clearly
established at the time of the state-court decision.”). Providing further clarity on this deferential standard, the
Supreme Court reiterated that:
[a] state court decision is “contrary to” our clearly established precedents if it
“applies a rule that contradicts the governing law set forth in our cases” or if it
“confronts a set of facts that are materially indistinguishable from a decision of
this Court and nevertheless arrives at a result different from our precedent.”
Early v. Packer, 537 U.S. 3, 8 (2002) (quoting Williams v. Taylor, 529 U.S. 362, 405-06 (2000)). Similarly, in
Carey v. Musladin, 549 U.S. 70 (2006), the Supreme Court elaborated on the meaning of “clearly established
federal law,” holding that the lack of a Supreme Court holding on a specific issue precludes a finding that a state
court decision on that issue was contrary to or an unreasonable application of clearly established federal law. Id.
at 77. Under this heightened standard, therefore, it is Petitioner’s burden to show that the Pennsylvania Supreme
Court unreasonably applied a clearly-established constitutional principle as set forth by the United States
Supreme Court when the state court upheld Petitioner’s conviction.
As the underpinnings of his first claim, Petitioner contends that the state court “unquestionably violated
Mr. Rosen’s rights under the Fifth Amendment,” and that the state court decision “was contrary to and involved
an unreasonable application of clearly established Federal Law, as determined by the Supreme Court of the
United States in Estelle v. Smith, 451 U.S. 454 (1981).” [ECF 9 at pp. 33, 38], As correctly concluded by the
Magistrate Judge, however, Petitioner has not identified a single United States Supreme Court decision that
directly supports his claim. Instead, Petitioner relies on snippets from several Supreme Court cases and a Third
Circuit case, in an attempt to extrapolate “clearly established Federal law” from general principles and
materially distinguishable holdings of the Supreme Court. Specifically, in his objections (and in his Petition),
Petitioner relies upon the following cases: Estelle v. Smith, 451 U.S. 454 (1981); Buchanan v. Kentucky, 483
U.S. 402 (1987); Kansas v. Cheever, 571 U.S. 87 (2013); and Gibbs v. Frank, 387 F.3d 268 (3d Cir. 2004).

2

Case 2:15-cv-04539-NIQA Document 34 Filed 08/22/18 Page 3 of 7

None of these cases, however, provides “clearly established Federal law” that was unreasonably applied by the
state courts in this matter.
In his objections to the R&R, with respect to his first habeas claim, Petitioner essentially contends that
the Magistrate Judge’s recommendation was erroneous in that it “barely mention[ed]” Estelle and “ignor[ed]”
Cheever and Gibbs. [ECF 31 at p. 1], Petitioner then goes on to argue (actually reargue) that the state court
decision was contrary to and involved an unreasonable application of clearly established Federal law, as
determined by the Supreme Court in Estelle. [Id. at p. 14]. As correctly found by the Magistrate Judge,
Plaintiffs objection and argument in this regard is misplaced.
In Estelle, the Supreme Court held that:
[a] criminal defendant, who neither initiates a psychiatric evaluation nor
attempts to introduce any psychiatric evidence, may not be compelled to
respond to a psychiatrist if his statements can be used against him.
451 U.S. at 468. In that case, a judge had ordered a psychiatric examination to determine the defendant’s
competency to stand trial. Id. at 456-57. The prosecution then used statements from that examination during the
sentencing phase of the trial as evidence of the defendant’s future dangerousness. Id. at 458-60. Emphasizing
that the defendant had neither “introduced” any “psychiatric evidence,” nor even “indicated that he might do
so,” the Supreme Court concluded that the Fifth Amendment precluded the state from using the defendant’s
statements in this manner. Id. at 466. Central to the Court’s holding, however, was the involuntariness of the
defendant’s statements to the court-appointed psychiatrist and the absence of Miranda warnings. Id. at 468.
Because respondent did not voluntarily consent to the pretrial psychiatric
examination after being informed of his right to remain silent and the possible
use of his statements, the State could not rely on what he said to Dr. Grigson to
establish his future dangerousness . . . ‘Volunteered statements . . . are not
barred by the Fifth Amendment,’ but under Miranda v. Arizona, we must
conclude that, when faced while in custody with a court-ordered psychiatric
inquiry, respondent’s statements to Dr. Grigson were not ‘given freely and
voluntarily without any compelling influences’ and, as such, could be used as
the State did at the penalty phone only if respondent had been apprised of his
rights and had knowingly decided to waive them. These safeguards of the Fifth
Amendment privilege were not afforded respondent and, thus, his death
sentence cannot stand.
Id. at 469-70 (citations omitted). By the Supreme Court’s express language, its holding in Estelle was limited to
the “distinct circumstances” presented there - a situation where the trial judge sua sponte ordered the psychiatric
examination, even though the defendant neither asserted an insanity defense nor offered psychiatric evidence at
trial, and did not voluntarily give statements to the court-appointed psychiatrist. Id. at 466. The Supreme Court
has subsequently noted that it has “never extended Estelle's Fifth Amendment holding beyond its particular
facts.” Penry v. Johnson, 532 U.S. 782, 794-95 (2001).
While Petitioner is correct as to the Supreme Court’s holding in Estelle, that holding does not apply to
or assess the situation in this case. Rather, Estelle was based on materially distinguishable facts. In particular,
here, unlike in Estelle, Petitioner voluntarily asserted a mental health defense prior to and during his first trial
while represented by counsel. Having voluntarily raised this defense, he was required to submit to an evaluation
by the Commonwealth’s own psychiatrist, Dr. Michals. Petitioner’s evaluation by and statements to Dr. Michals
cannot be deemed involuntary, coerced, or compelled since he voluntarily raised the mental health defense and
subsequently presented his own evidence at his first trial in support of the mental health defense. In addition,

3

Case 2:15-cv-04539-NIQA Document 34 Filed 08/22/18 Page 4 of 7

the record shows that Petitioner’s trial counsel, Mr. Emmett Fitzpatrick, was present when Petitioner was
evaluated by Dr. Michals. [See ECF 12-102, Trial Transcript at 137:6-9], In light of these undisputed facts, this
case does not comprise of facts that are “materially indistinguishable” from those presented in Estelle. As such,
for purposes of the instant habeas petition, Estelle does not constitute clearly established Federal precedent.
Therefore, the state court’s decision here cannot be said to have been contrary to clearly established federal
precedent in regard to the Estelle holding. See Taylor, 529 U.S. at 406 (noting that a state court decision will be
contrary to clearly established Federal precedent only “if the state court confronts a set of facts that are
materially indistinguishable from a decision of this [c]ourt and nevertheless arrives at a result different from our
precedent.”). By the same token, the state court’s decision cannot be said to have been objectively
unreasonable. Cf Penry, 532 U.S. at 794-95 (noting that Estelle's, holding was limited to the “distinct
circumstances” presented there and finding the difference between its case and Estelle “substantial;” thus, it was
not “objectively unreasonable for the Texas court to conclude that [defendant] is not entitled to relief on his
Fifth Amendment claim.”).
Petitioner’s reliance on the Supreme Court’s decision in Buchanan v. Kentucky, 483 U.S. 402 (1987) is
equally unavailing. In Buchanan, the Supreme Court held that the prosecution’s introduction of a psychological
report for rebuttal purposes did not constitute a Fifth Amendment violation where the accused asserted an
insanity defense and, thus, placed his mental health in issue. Id. at 421-24. The Supreme Court cited to Estelle's
admonition against compelling an accused, who neither initiates a psychiatric evaluation nor attempts to
introduce any psychiatric evidence, to respond to a psychiatrist if his statements could be used against him at a
capital sentencing proceeding, and then noted that the statement “logically leads to another proposition: if a
defendant requests such an evaluation or presents psychiatric evidence, then, at the very least, the prosecution
may rebut this presentation with evidence from the reports of the examination that the defendant requested.” Id.
at 422-23; see also Kansas v. Cheever, 571 U.S. 87, 94 (2013) (finding that in Buchanan, the Supreme Court
held “that where a defense expert who has examined the defendant testifies that the defendant lacked the
requisite mental state to commit an offense, the prosecution may present psychiatric evidence in rebuttal.”).
As conceded by Petitioner, in Buchanan, the Supreme Court held that if a defendant presents a mentalstatus defense supported by the testimony of a mental health expert, the court may compel the defendant to
undergo an examination by a prosecution expert. Here, Petitioner was only required to undergo an examination
by a prosecution expert after he asserted a mental health defense supported by the testimony of his own mental
health expert. As such, the holding in Buchanan was not violated here.
Most importantly to Petitioner’s underlying habeas claim in this case, Buchanan does not address the
issue presented here: whether the Fifth Amendment waiver continues to apply when a defendant asserts a
mental health defense in a first trial, but then withdraws it for a second trial. Indeed, Petitioner conceded as
much in his brief to the Pennsylvania Supreme Court, noting that “neither Buchanan nor Sartin discussed the
problem of whether the limited waiver of the privilege, a compelled waiver that in effect placed a price on
presenting a mental health defense, applied when mental health was no longer an issue.” {See Brief for
Appellant, 2010 WL 7505903 at *17). Thus, because the Buchanan holding does not address the precise issue
raised here, it cannot be deemed clearly established Federal law for purposes of Petitioner’s habeas petition.
Necessarily, then, the state court’s conclusion in this case cannot be deemed contrary to clearly established
Federal law. See Musladin, 549 U.S. at 77 (holding that “[g]iven the lack of holdings from this Court regarding
[the current issue], it cannot be said that the state court ‘unreasonablfy] applifed] clearly established Federal
law.’”); Early, 537 U.S. at 8 (noting that “contrary to” means a state court’s arrival at a conclusion opposite to
one reached by the Supreme Court on a question of law or facts materially indistinguishable from those of a
relevant Supreme Court precedent); Taylor, 529 U.S. at 406 (noting that a state court decision will be contrary to
clearly established Federal precedent “if the state court confronts a set of facts that are materially
indistinguishable from a decision of this Court and nevertheless arrives at a result different from our
precedent.”).

4

Case 2:15-cv-04539-NIQA Document 34 Filed 08/22/18 Page 5 of 7

Petitioner’s reliance on the Supreme Court’s decision in Kansas v. Cheever, 571 U.S. 87 (2013) is also
misplaced. In Cheever, the defendant in a homicide case filed a notice of intent to introduce expert testimony
relating to his purported intoxication, which would negate the requisite specific intent. Id. at 90. Pursuant to
Federal Rule of Criminal Procedure 12.2(b), the trial court ordered the defendant to submit to a psychiatric
evaluation. Id. at 91. The federal trial was subsequently suspended and then dismissed without prejudice, and a
second federal prosecution never occurred. Id. State prosecutors then brought equivalent state charges against
the defendant. Id. At the state trial, the defendant presented a voluntary-intoxication defense. Id. In support,
the defendant offered testimony of a specialist in psychiatric pharmacy. Id. After the defense rested, the state
presented the testimony of the expert who had examined the defendant pursuant to the federal court order. Id.
The defendant was convicted. Id. at 92.
On appeal, the defendant challenged the admission of the testimony of the state’s expert on the grounds
that it violated the Fifth Amendment’s prohibition against compelled testimony. Id. The Supreme Court
rejected the defendant’s argument, finding that where a defense expert who examined the defendant in a
homicide prosecution testified that the defendant lacked the mental state to commit an offense, the prosecution
was permitted to present psychiatric evidence in rebuttal. Id. at 94. Relying on Estelle and Buchanan, the
Supreme Court held that the Fifth Amendment does not prohibit the prosecution from introducing a courtordered mental evaluation of a criminal defendant to rebut that defendant’s presentation of expert testimony in
support of a defense of voluntary intoxication. Id. at 93-94. The Cheever Court merely reaffirmed its decisions
in Estelle and Buchanan'.
We hold that where a defense expert who has examined the defendant testifies
that the defendant lacked the requisite mental state to commit a crime, the
prosecution may offer evidence from a court-ordered psychological
examination for the limited purpose of rebutting the defendant’s evidence.
Id. at 98.
The Supreme Court’s decision in Cheever, like the others discussed above and proffered by Petitioner,
does not constitute clearly established Federal law to which the state courts in Petitioner’s underlying state court
appeals rendered a “contrary” decision, but rather is premised on “materially distinguishable” facts. Here, the
prosecution did not use a court-ordered psychological examination for any purpose in Petitioner’s second trial.
In fact, when ruling on Petitioner’s motion in limine with respect to the potential use of the evidence, the trial
court ruled that the prosecution could not use the evidence in its case-in-chief, but could only use it to impeach
Petitioner in the event Petitioner took the stand. As such, Cheever, like Buchanan and Estelle, does not apply.
Moreover, Cheever, like the other offered Supreme Court cases, does not discuss or address the precise issue
presented here: whether a Fifth Amendment waiver continues to apply when a defendant decides in a second
trial to not offer evidence of a mental defense. Thus, the state court’s decision in this case is not opposite to or
contrary to the one reached by the Supreme Court in Cheever on a question of law or on facts materially
indistinguishable from that case. As such, the state court’s decision in Petitioner’s case cannot be said to have
been contrary to clearly established Federal law, nor can it be an unreasonable application of clearly established
Federal law. See Musladin, 549 U.S. at 77; Early, 537 U.S. at 8; Taylor, 529 U.S. at 406.
Though procedurally similar to this case, the United States Court of Appeals for the Third Circuit’s
decision in Gibbs v. Frank, 387 F.3d 268 (3d Cir. 2004) also provides Petitioner no support. As an initial
matter, Gibbs is not clearly established Federal law for purposes of federal habeas review since it is not a
decision of the Supreme Court. See Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003) (noting that clearly
established Federal law is that determined by the United States Supreme Court); see also Fischetti, 384 F.3d at
149 (warning that “cases not decided by the Supreme Court did not serve as a legal benchmark against which to
compare the state decision.”); Taylor, 529 U.S. at 381 (holding that “[i]f [the Supreme] Court has not broken
sufficient legal ground to establish an asked-for constitutional principle, the lower federal courts cannot
themselves establish such a principle with clarity sufficient to satisfy the AEDPA bar.”). While federal habeas

5

Case 2:15-cv-04539-NIQA Document 34 Filed 08/22/18 Page 6 of 7

courts are not precluded from considering the decisions of the lower federal courts when evaluating whether the
state court’s application of Supreme Court precedent was reasonable, “federal courts may not grant habeas
corpus relief based on the state court’s failure to adhere to the precedent of a lower federal court on an issue that
the Supreme Court has not addressed.” Matteo, 171 F.3d 890.
In any event, contrary to Petitioner’s assertion, Gibbs does not involve “circumstances precisely
mirroring those in Petitioner’s trial.” In Gibbs, the defendant asserted a diminished-capacity defense in his first
trial. Id. at 271. As a result, the defendant was ordered to submit to an interview by a state doctor. Id. The
prosecution was then permitted to offer the expert testimony of its own doctor who had examined the defendant
to rebut the defendant’s defense. Id. At the second trial, the defendant withdrew his mental-capacity defense,
but the trial court permitted the prosecution to introduce the testimony of its own doctor in its case-in-chief,
simply to repeat incriminating statements the defendant had made to him. Id. at 275. Reversing the district
court’s denial of the defendant’s petition for habeas corpus, the Third Circuit held that because the interview
was mandated by the state court and because the statement was not simply offered at the second trial in rebuttal,
a Fifth Amendment violation occurred. Id. Central to the Third Circuit’s decision, however, was the fact that
the prosecution was permitted to introduce the evidence in its case-in-chief and was not limited to rebuttal. Id.
at 275. In that regard, the Third Circuit noted:
the statement was not offered at the second trial after the defense put psychiatry
in issue, and it was not limited to rebuttal. In fact, the purpose for which it was
offered at Gibb’s trial was not even to prove a psychological point, since the
second trial presented no psychological issue before [the state doctor] testified.
The statement was offered simply for the truth of the admissions of fact.
Id. at 275.
Once again, Petitioner’s reliance on Gibbs is misplaced since it involved materially distinguishable facts
and did not address the precise issue raised here. Unlike in Gibbs, none of the evidence subject to Petitioner’s
underlying claim was ever introduced for any purpose at his second trial. Further, though the trial judge
determined that the challenged evidence could be introduced at Petitioner’s second trial, it limited any potential
use of the evidence to impeachment and specifically ruled that the evidence could not be introduced in the
prosecution’s case-in-chief. As such, this decision is not applicable here.
Simply put, none of the Supreme Court decisions on which Petitioner relies stands for the proposition
that a prosecutor is precluded by the Fifth Amendment or any other constitutional protection from using
voluntary statements made by a defendant to his own psychiatrist and/or a state’s psychiatrist prior to a first trial
in which the defendant pursued a mental health defense to impeach a defendant in a second trial in which the
defendant does not assert a mental-health defense but takes the stand in his own defense. Absent controlling
Supreme Court precedent on this issue, it necessarily follows that the Pennsylvania Supreme Court’s decision
rejecting Petitioner’s claim cannot be either “contrary to, or ... an unreasonable application of clearly,
established Federal law ... by the Supreme Court.” 28 U.S.C. § 2254(d)(1); see also Musladin, 549 U.S. at 7677 (holding that the state could not have unreasonably applied clearly established Federal law where the issue
presented involved an “open question” in Supreme Court jurisprudence). In the absence of “clearly established
[fjederal law as determined by the Supreme Court,” there can be no basis for overturning the state courts’
adjudication of this claim. Accordingly, the Magistrate Judge’s conclusion that Petitioner’s habeas petition
lacked merit is correct. Therefore, Petitioner’s objections are overruled, and the habeas petition is denied.
As a final point, this Court notes that Petitioner’s trial counsel correctly and candidly recognized the
absence of governing case law supporting Petitioner’s underlying arguments when he argued the motion in
limine at issue. Specifically, during the oral argument, Petitioner’s counsel acknowledged the absence of any
case law supporting his argument and that he had an “uphill battle” on the issue. [See ECF 12-4 at pp. 8].

6

Case 2:15-cv-04539-NIQA Document 34 Filed 08/22/18 Page 7 of 7

3.

Petitioner’s petition for a writ of habeas corpus, [ECF 1], is DENIED; and

4.

No probable cause exists to issue a certificate of appealability.

2

The Clerk of Court is directed to mark this matter CLOSED.
BY THE COURT:

/s/ Nitza I. Quinones Alejandro________
NITZA I. QUINONES ALEJANDRO
Judge, United States District Court

Attorney Winters: And I’m asking in the Motion in Limine that the
Commonwealth not be allowed to cross-examine my client in the event he
testifies as to anything he said to his psychiatrist or to Dr. Michaels; my theory
being that if this were the first trial around and I were representing Mr. Rosen,
they would not have that information. One, he would not be talking to Dr.
Michaels, their witness and, two, they would not have been provided with the
reports of his psychiatry; and, therefore, that’s information they would not have
known and could not have used in the trial. I acknowledge I have an uphill
battle on that because obviously my client The Court: What you’re suggesting is that a waiver at one level cannot be
used if the defense in a second trial, if it’s inconsistent - if the defense is not the
same?
Attorney Winters: That’s what I’m arguing, Judge. And I’ll be the first to
admit because you know I’ve never lied to this Court or any Court, I’ve
researched the issue and it’s a unique issue, and I haven’t found any law that I
can stand here and say supports my position. I certainly have to acknowledge
that my client, through his first attorney, did waive his privilege with his
psychiatrist.
[Id. at pp. 8-9].
A district court may issue a certificate of appealability only upon “a substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c). A petitioner must “demonstrate that reasonable jurists would find
the district court’s assessment of the constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S.
473, 484 (2000); Lambert v. Blackwell, 387 F.3d 210, 230 (3d Cir. 2004). For the reasons set forth, this Court
concludes that no probable cause exists to issue such a certificate in this action because Petitioner has not made
a substantial showing of the denial of any constitutional right. Petitioner has not demonstrated that reasonable
jurists would find this Court’s assessment “debatable or wrong.” Slack, 529 U.S. at 484. Accordingly, there is
no basis for the issuance of a certificate of appealability.

7

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 1 of 26

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
ADAM ROSEN,

CIVIL ACTION

Petitioner,
v.
JOHN KERESTES, SUPERINTENDENT,
et al.,
Respondents.

NO. 15-4539

REPORT AND RECOMMENDATION
DAVID R. STRAWBRIDGE
UNITED STATES MAGISTRATE JUDGE

October 25,2017

Before the Court is the counseled petition of Adam Rosen (hereinafter “Rosen” or
“Petitioner”), for the issuance of a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254.
Rosen is currently incarcerated at the State Correctional Institute Mahanoy in Frackville,
Pennsylvania, serving a sentence of life imprisonment imposed in the Montgomery County Court
of Common Pleas for first-degree murder.1 He seeks relief from his conviction on the ground
that a pre-trial evidentiary ruling violated his rights under the Fifth Amendment and precluded
him from exercising his right to testify in his own defense. He also contends that counsel
performed deficiently at trial in failing to rebut expert witness testimony presented by the
Commonwealth. After consideration of the record before us and for the reasons set forth below,
we find that his claims were reasonably adjudicated by the state courts and accordingly
recommend that the petition be denied.

i

While Petitioner is in custody at an institution located in Schuylkill County within the Middle
District of Pennsylvania, venue is proper here in that he was convicted and sentenced in the
Montgomery County Court of Common Pleas, in the Eastern District. See 28 U.S.C. § 2241(d).

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 2 of 26

I.

FACTUAL AND PROCEDURAL BACKGROUND2
Petitioner fatally stabbed his wife, Hollie Rosen (“Hollie”), in their home on the morning

of June 30, 2001. He initially told responding officers that she was killed by two masked
intruders. Soon after, however, he acknowledged to detectives that he stabbed her, explaining
that it happened during a domestic argument in which Hollie first threatened him with a knife.
She suffered stab wounds to the chest, piercing her lung; the neck, piercing her jugular vein and
voice box; and four wounds in the back, one of which also pierced a lung.
The Commonwealth has tried Petitioner twice for this murder. At both trials, the defense
conceded that Rosen inflicted the fatal wounds but contended that he did not act with the specific
intent to kill required for a conviction of first-degree murder. Both cases were tried before the
Honorable Paul W. Tressler; the first was a jury trial and the second a bench trial.
Rosen was represented in the first trial, which was held in April and May of 2002, by
Attorneys F. Emmett Fitzpatrick, Jr. and F. Emmett Fitzpatrick, III. He did not testify but
asserted a diminished capacity defense through a psychiatric expert, Dr. Paul Fink. He testified
that Rosen suffered from bipolar disorder that escalated into paranoid psychosis. He opined that
the stabbing resulted from a psychotic episode and that the killing was not premeditated. The
Commonwealth countered with another expert, Dr. Timothy Michals, who, based upon an
examination of Rosen and a review of records in the case, opined that Rosen had no mental
2

In preparation for this Report, we have reviewed Rosen’s habeas corpus petition received on
August 13, 2015 (Doc. 1) (“Pet.”); the counseled Memorandum of Law in Support of Petition for
a Writ of Habeas Corpus filed on December 14, 2015 (“Pet’r Mem.”), with appended exhibits
(Doc. 9); the Response in Opposition to the Petition for Writ of Habeas Corpus, filed September
12, 2016 by the Montgomery County District Attorney’s Office (“Resp.”), with appended
exhibits (Doc. 24); Petitioner’s Reply to the Commonwealth’s Response to Petition for a Writ of
Habeas Corpus filed October 7, 2016 (Doc. 25) (“Pet’r Reply”); and the various documents in
the electronic file received on December 24, 2015 from the Office of the Clerk of Courts of
Montgomery County (Doc. 12) (“St. Ct. Rec.”).
2

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 3 of 26

disorder that would impair his capacity to form the intent to commit this crime.

The

Commonwealth also argued that Rosen’s conduct prior to and following the attack showed that
he desired to bring about his wife’s death and undermined any notion that the fatal attack was
unintentional. The jury returned a verdict of first-degree murder on May 2, 2002, and the court
sentenced Rosen to life imprisonment. The Pennsylvania Superior Court affirmed the judgment
of conviction, Commonwealth v. Rosen, 80 A.2d 1052 (Pa. Super. Ct. June 6, 2003), and the
Pennsylvania Supreme Court denied allowance of appeal. Commonwealth v. Rosen, 832 A.2d
436 (Pa. Oct. 2, 2003) (table).
With the assistance of retained counsel, Rosen filed a petition on September 27, 2004
seeking collateral relief under the Post Conviction Relief Act, 42 Pa. Cons. Stat. § 9541, et seq.
(“PCRA”), for several claims of ineffective assistance of counsel. The PCRA Court convened an
evidentiary hearing but denied the petition on March 1, 2005. The Superior Court, however,
determined that trial counsel had been ineffective for failing to call character witnesses to testify
to Rosen’s reputation for non-violence, as this evidence aligned with the defense that Rosen did
not plan nor intend to kill Hollie and that he was mentally unstable when he did so. It reversed
the PCRA Court and remanded the case for a new trial. Commonwealth v. Rosen, No. 753 EDA
2005, 890 A.2d 1105 (Pa. Super. Ct. Nov. 23, 2005). The Pennsylvania Supreme Court denied
further review. See Commonwealth v. Rosen, No. 1090 MAL 2005, 906 A.2d 542 (Pa. Aug. 31,
2006).
Rosen was appointed new counsel, Richard D. Winters, Esquire, for the re-trial in the
Court of Common Pleas, over which Judge Tressler would again preside. In advance of trial, the
defense filed a motion in limine seeking the preclusion of psychiatric evidence introduced in the
first trial, as Rosen did not intend to present a mental capacity defense again but rather planned

3

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 4 of 26

to testify himself concerning his actions and intentions.3 The Commonwealth filed a countermotion affirmatively seeking to use this material at the re-trial. The court granted the defense
motion to preclude the Commonwealth from presenting expert psychiatric testimony in its case­
in-chief. At the same time, the court also ruled that Rosen’s prior statements to a treating
psychiatrist and the mental health experts that were introduced at the first trial could be used by
the Commonwealth as impeachment evidence if Rosen gave inconsistent testimony at trial.4 See
Commonwealth v. Rosen, 1925(a) opinion, No. 5182-01, slip op. at 1-3 (Montg. Comm. PI. Ct.
May 15, 2009) (recounting history and describing oral ruling on motion in limine) [Doc. 12-36].
Rosen waived his right to a jury trial and proceeded to a bench trial before Judge
Tressler. Much of the testimony from the first trial was incorporated by stipulation, although
some witnesses testified again live and some additional witnesses were called.

The

Commonwealth again called Ian Hood, M.D., one of two medical experts from the first trial, and
asked him about whether or not the wounds documented in the post-mortem examination of
Hollie suggested “overkill,” which Petitioner now argues reflected a surprise line of questioning
that improperly sought to undermine his defense regarding his state of mind.

On cross-

examination, Attorney Winters elicited testimony that the stab wounds were consistent with a
3 As Attorney Winters later explained, the defense hoped for a conviction of no more than thirddegree murder by conceding the stabbing but arguing that Rosen lacked the specific intent to kill.
He did not pursue a voluntary manslaughter conviction or employ a “heat of passion” defense
because that would have required the defense to concede that he acted with a specific intent to
kill, which Rosen appeared unwilling to acknowledge. See, e.g., N.T. (PCRA) 3/3/14 at 4, 20-21
[Doc. 12-29],
4 As part of his mental health defense, Rosen waived privilege and permitted the expert
witnesses to review records of visits he had with a psychologist and a psychiatrist in the spring of
2001, prior to Hollie’s death. The experts’ testimony touches upon statements Rosen made to
those providers about his relationship with Hollie (including prior bad acts), his psychiatric
symptoms, and their diagnoses. Neither the treating psychiatrist nor the treating psychologist
testified.
4

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 5 of 26

struggle and that Hollie was not stabbed while she slept. This concession supported the defense
narrative that Hollie started a fight by swinging a knife at Petitioner, to which he claimed that he
responded spontaneously.
The defense called character witnesses in Rosen’s behalf but Rosen ultimately did not
testify in his own defense. He now attributes his decision not to testify to the court’s pre-trial
ruling on the motions in limine that exposed him to potential impeachment with statements made
to his treating psychiatrist and the psychiatric experts that were utilized in the first trial when the
experts were called. Following the relatively brief presentation of evidence, Attorney Winters
focused his closing argument on the evidence showing that Rosen lacked a plan to commit and to
disguise his role in the commission of this homicide that morning.

He argued that these

circumstances demonstrated that Rosen did not act with the specific intention to kill Hollie when
he stabbed her. (N.T. Tr. II, Vol. 2 (7/22/08) at 10-14, 18.) [Doc. 9-2.]
At the conclusion of the bench trial on July 22, 2008, Judge Tressler convicted Rosen of
first-degree murder, the same verdict returned by the jury six years earlier. The Superior Court
affirmed the conviction on December 28, 2009. Commonwealth v. Rosen, 988 A.2d 146 (Pa.
Super. Ct. 2009). The Pennsylvania Supreme Court granted Rosen’s petition for allowance of
appeal to consider whether the trial court properly ruled that the Commonwealth was permitted
to use Rosen’s statements to the psychiatrists — obtained pursuant to a limited Fifth Amendment
waiver occasioned by the mental health defense asserted in the first trial — in the subsequent
trial where no mental health defense was presented. The court ultimately, however, affirmed the
conviction on April 25, 2012. Commonwealth v. Rosen, 42 A.3d 988 (Pa. 2012). [Pet’r Mem. at
Ex. A.]

5

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 6 of 26

With his direct appeal process on the second conviction final, Rosen again pursued
PCRA relief, this time asserting ineffective assistance of Attorney Winters in the 2008 trial.
Rosen retained new counsel for the PCRA review, who also represents him in the present habeas
action. Following the retirement of Judge Tressler, the Honorable Wendy Demchick Alloy was
assigned the petition and convened a hearing at which Attorney Winters testified about his role
in the second trial. One of the subjects of the hearing was his “failure” to call an expert witness
to rebut the testimony of Dr. Hood concerning the absence of evidence of “overkill” in the stab
wounds. Attorney Winters acknowledged that he had not considered retaining an expert in
response but that he did not think that one was warranted. The PCRA Court agreed, finding that
counsel had a reasonable basis for not calling an expert witness on this issue and that Rosen did
not suffer prejudice where his defense was not that he killed Hollie while in the heat of passion
but rather that he never specifically intended to kill Hollie. Commonwealth v. Rosen, No. CP-46CR-5182-2001, slip op. at 17-23 (Montg. Comm. PI. Ct. June 16, 2014) [Doc. 9-1] (1925(b)
Opinion). The Superior Court affirmed the denial of PCRA relief. Commonwealth v. Rosen, No.
1260 EDA 2014, 122 A.3d 444 (Pa. Super. Ct. May 11, 2015) (table) [Doc. 24-7],

The

Pennsylvania Supreme Court denied review. Commonwealth v. Rosen, No. 488 MAL 2015, 125
A.3d 1201 (Oct. 7, 2015) (table).
Rosen filed his habeas petition on August 13, 2015, while his petition for review was still
pending in the Pennsylvania Supreme Court. Once state review concluded, the parties completed
their briefing on this petition. In his first ground for habeas relief, Rosen presents the issue
considered in the direct appeal of his second conviction: that the court’s pre-trial ruling,
permitting the Commonwealth to cross-examine him using statements he made to psychiatrists
before his first trial, violated his rights under the Fifth Amendment and compromised his

6

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 7 of 26

fundamental right to testify in his own defense when he was re-tried.

His second ground

presents the issue addressed in the appeal of the dismissal of his PCRA petition following the
second conviction: the allegedly inadequate response of Attorney Winters when the
Commonwealth elicited testimony from Dr. Hood regarding Hollie’s injuries in relation to
“overkill.” He contends that the state courts’ adjudications of these claims on the direct appeal
and PCRA review following his second conviction were contrary to clearly established federal
law or involved unreasonable applications of clearly established federal law. (Pet’r Mem. at 32,
46.) The District Attorney of Montgomery County, on behalf of the Respondents, opposes the
petition on the grounds that both claims were properly rejected by the state courts. (Doc. 24.) In
his subsequent reply brief, Petitioner continues to advance his arguments on the merits. (Doc.
25.)
II.

LEGAL STANDARDS
The writ of habeas corpus extends to prisoners in state custody under the judgment and

sentence of a state court only if the petitioner “is in custody in violation of the Constitution or
laws or treaties of the United States.” 28 U.S.C. §§ 2241(c)(3), 2254(a).

Where a claim

presented in the federal habeas petition was adjudicated on the merits in the state courts,
however, the Anti-Terrorism and Effective Death Penalty Act of 1996 (“AEDPA”) limits relief
to those cases where the state court adjudication:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
state court proceeding.
28 U.S.C. § 2254(d).

7

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 8 of 26

A writ may issue under the “contrary to” clause of Section 2254(d)(1) only if the “state
court applies a rule different from the governing rule set forth in [United States Supreme Court]
cases or if [the state court] decides a case differently than [the United States Supreme Court has]
done on a set of materially indistinguishable facts.”

Bell v. Cone, 535 U.S. 685, 694 (2002).

A writ may issue under the “unreasonable application” clause only where there has been a
correct identification of a legal principle from the Supreme Court but the state court
“unreasonably applies it to the facts of the particular case.” Williams v. Taylor, 529 U.S. 362,
365 (2000).

This requires the petitioner to demonstrate that the state court’s analysis was

“objectively unreasonable.” Woodford v. Visciotti, 537 U.S. 19, 25 (2002). In addition, this
standard obligates the federal courts to presume that the “state courts know and follow the law,”
and precludes the federal court from determining the result of the case without according all
proper deference to the state court’s prior determinations.

Id. at 24.

The term “clearly

established federal law” means governing legal principles set forth by the Supreme Court at the
time of the state court rendered its decision. Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003).
III.

DISCUSSION
Citing the standards of 28 U.S.C. § 2254(d), Respondents contend that neither of Rosen’s

claims warrant relief, as the state courts’ adjudication of them did not result from an
unreasonable application of clearly established federal law as determined by the United States
Supreme Court, nor were the state court decisions contrary to any clearly established law. As we
explain below, we agree.
A.

Ground One: Deprivation of right to testify

Petitioner’s first claim concerns what he believes was an abrogation of his right to testify
in his own behalf at his re-trial. He sets out in his petition his belief that “[t]he trial court
deprived Petitioner of his constitutional right to testify at his second trial, when it ruled that, at
8

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 9 of 26

his second trial, he could be impeached with statements made to mental health professionals that
were presented at his first trial, even if he did not raise a mental health defense at his second
trial.” (Pet. at 8) Addressing this claim in the framework of 28 U.S.C. § 2254(d)(1), he contends
in his supporting brief that “[t]he state court’s decision, permitting the Commonwealth to
introduce testimony from mental health experts in a case where Petitioner did not assert a mental
health defense, was contrary to clearly established Federal law and involved an unreasonable
application of clearly established Federal law.” (Pet’r Mem. at 32.) He contends that the ruling
on the motion in limine “unquestionably violated [his] rights under the Fifth Amendment, under
which the compelled disclosure of evidence resulting from a psychiatric defense remains a
limited one,” which he believes “may only be used to rebut a mental health defense.” {Id. at 33.)
Identifying the specific action that deprived him of constitutional rights, he contends that “the
trial court’s erroneous in limine ruling violated [his] Fifth Amendment rights and compromised
his fundamental right to testify.” {Id.) He similarly asserts in his reply brief that “he simply
sought to testify regarding the event in question, without triggering the admission of inadmissible
bad act evidence — or evidence of acts that might be misapprehended as bad acts evidence.”
(Pet’r Reply at 4.)5 He claims that the ruling on the motion in limine “operated as a denial of
Petitioner’s right to testify regarding the pivotal question of his state of mind at the time of the
offense.” {Id. at 5.)

5 The feared bad act evidence apparently included that he drew a gun when involved in a fight
with another man over a former girlfriend and an admission to his treating psychiatrist that he
had once pulled his wife’s hair in anger and tried to force sex on her. He also was concerned
about a conclusion reached by the Commonwealth psychiatrist that he had lied during his
evaluations. See Pet’r Mem. at 33; Pet’r Reply at 4 n.2.
9

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 10 of 26

1.

Denial of the constitutional right to testify

In Rock v. Arkansas, 483 U.S. 44 (1987), the Supreme Court noted three provisions of the
Constitution that give rise to a right to testify in one’s own behalf at a criminal trial. First, the
Fourteenth Amendment’s guarantee that no one shall be deprived of liberty without due process
of law “includefs] a right to be heard and to offer testimony.” Rock, 483 U.S. at 51. Second, the
Compulsory Process Clause of the Sixth Amendment, which grants a defendant the right to call
witnesses in his favor, also justifies this right. Id. at 52. Finally, the Court found support for the
right to testify in the Fifth Amendment’s guarantee against compelled testimony, viewing the
opportunity to testify if one wishes to do so as “a necessary corollary” to the opportunity to
refuse to testify and “remain silent unless he chooses to speak in the unfettered exercise of his
own will.” Id. at 53 (quoting Harris v. New York, 401 U.S. 222, 230 (1971)). It is the alleged
denial of the right to testify that we consider implicated by Ground One. See Pet’r Mem. at 24
(identifying claim as “Denial of Constitutional right to testify”); id. at 32 (citing Rock v.
Arkansas in opening of argument concerning Ground One).
2.

State court presentation and adjudication

Prior to the second trial, Rosen filed a motion in limine, seeking to prevent the
Commonwealth from employing statements he had made to his own psychiatrist in therapy prior
to the homicide and to the mental health experts in advance of his first trial. He explained that he
would not be presenting a diminished capacity defense, although he did expect to testify at the
second trial, unlike the first.

The court heard oral argument and later ruled that the

Commonwealth could not use this information in its case-in-chief but could impeach Rosen with
these statements if he testified. See N.T. 12/27/07 (oral argument) [Doc. 12-4]; Commonwealth
v. Rosen, 1925(a). opinion, No. 5182-01, slip op. at 3 & n.l (Montg. Comm. PI. Ct. May 15,

10

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 11 of 26

2009) (noting subsequent oral ruling and that it was not transcribed) [Doc. 12-36]. Rosen did not
ultimately testify.
Following his conviction and denial of post-sentence motions, he appealed to the
Superior Court and asserted in his 1925(b) Statement that the trial court’s ruling permitting the
Commonwealth to impeach him if he testified at trial with his statements made to the mental
health experts violated his “privilege against self-incrimination” and unconstitutionally deprived
him of his right to testify, in violation of the Fifth and Fourteenth Amendments. See id., slip op.
at 14-15 (describing claims of error raised post-trial). The trial court explained its determination
that Rosen had waived his Fifth Amendment privilege as to statements he made to experts and
that those statements were “just as admissible at the second trial as testimony Rosen himself
might have given.” Id. at 13. The court also explained that it found “untenable” Petitioner’s
argument that the court essentially “constructively” denied him his right to testify at trial, as the
court “did not directly forbid Rosen to testify” and the responsibility to choose to testify lies with
a defendant alone. Id. at 13-14.
The Superior Court affirmed. See Commonwealth v. Rosen, 988 A.2d 146 (Pa. Super. Ct.
2009).

It recognized that in one of its prior cases, it had concluded that a defendant had

“suffered undue prejudice to his defense” from an “erroneous evidentiary ruling” of the trial
court that “deprived [him] of the ability to tell the jury his version of events.” Id. at 148.
Accordingly, it considered whether the trial court’s in limine ruling here was “erroneous” but
ultimately concluded that it was not. It found that Rosen’s waiver of his privilege against self­
incrimination when he spoke with the psychiatrists to prepare his mental status defense at the
first trial could not “be undone” even if he did not present that defense at the second trial. Id. at
149. The Superior Court was thus “satisfied that the trial court’s conditional admission of the

11

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 12 of 26

psychiatric expert witness testimony from Appellant’s trial was not erroneous” and that it
therefore “need not consider whether [Rosen’s] right to choose to testify ... was vitiated by an
evidentiary error.” Id. at 150.
The Pennsylvania Supreme Court granted review on the question of “[w]hether the
limited Fifth Amendment waiver occasioned by a mental health defense in a defendant’s first
trial allows the Commonwealth to use the evidence obtained pursuant to such waiver as rebuttal
in a subsequent trial where no mental health defense is presented.” Commonwealth v. Rosen, 42
A.3d 988, 993 (Pa. 2012). It perceived its role as “reviewing the denial of a motion in limine[.]"
Id.

It examined the arguments and authorities concerning the Fifth Amendment and the

compelled disclosure of evidence resulting from a psychiatric defense. See id. at 993-95. Much
of the focus of the court’s discussion was on the appropriate interpretation of one of its
precedents discussed extensively by the lower courts, Commonwealth v. Santiago, 662 A.2d 610
(Pa. 1995), and what that case dictated in terms of the admissibility of the psychiatric testimony
at the retrial. See id. at 991-97. The court agreed that Petitioner’s statements to his own expert
were not compelled and therefore admission at retrial was not barred by the Fifth Amendment.
Id. at 996. It also concluded that the statements to the Commonwealth’s rebuttal expert would be
similarly admissible at retrial as to the issues implicated by Rosen’s own expert. Id. at 996-97.
The court affirmed the Superior Court decision without discussing the question of any
infringement upon Rosen’s right to testify at trial.
3.

The state court did not unreasonably reject Petitioner’s claim that the
Commonwealth violated his right to testify.

Petitioner’s legal analysis regarding the state court ruling on the issue presented in this
ground for relief focuses upon the in limine ruling permitting the Commonwealth to impeach him
with statements made to both his own expert and the Commonwealth’s expert. Attempting to
12

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 13 of 26

use the language of 28 U.S.C. § 2254(d), he contends that the state court “unquestionably
violated Mr. Rosen’s rights under the Fifth Amendment,” (Pet’r Mem. at 33), and that the state
court decision justifying this ruling “was contrary to and involved an unreasonable application of
clearly established Federal Law, as determined by the Supreme Court of the United States in
Estelle v. Smith, 451 U.S. 454 (1981).” (Pet’r Mem. at 38.)

In an effort to link this allegedly

improper ruling concerning a Fifth Amendment question with his right to testify claim, he
contends that “[t]he introduction of such testimony ... violated Petitioner’s rights under the Fifth
and Fourteenth Amendments and operated as a denial of Petitioner’s right to testify in his own
defense.” (Id. at 45.) The Commonwealth, of course, never introduced any of these statements
at trial.
We see no merit in Petitioner’s contention that he was deprived of his right to testify in
his own defense. The state court did not infringe upon that right. All it did was rule that, as a
testifying witness, Rosen could be impeached with prior inconsistent statements, including
statements made to the psychiatrists as to which he had waived doctor-patient confidentiality
previously (i.e., his treating psychiatrist) and the experts who examined him in a context in
which no privilege attached (i.e., for purposes of the mental capacity defense). Rosen was never
compelled to be a witness against himself as described in the Fifth Amendment. Nor was his
right to testify in his own defense infringed: rather, he expressly waived that right, as reflected in
a short colloquy on the record prior to closing arguments. See N.T. 7/21/08 at 233-47 (defense
case) [Doc. 12-59]; N.T. 7/[22]/08 at 5-8 (colloquy) [Doc. 9-2], He was no neither precluded nor
restricted from testifying.
Instead of focusing directly on the question of whether the state impeded him from
testifying in violation of his rights under the Fifth, Sixth and Fourteenth Amendments as

13

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 14 of 26

recognized in Rock v. Arkansas, 483 U.S. 44, 49-53 (1987), Petitioner fixates on the pre-trial
ruling, the scope of which he appears to have misunderstood. The Commonwealth was not being
permitted to present the psychiatrists’ conclusions about whether Rosen was capable of forming
the specific intent to kill his wife or whether they believed he was being truthful. Rather, the
trial court’s ruling permitted only for his account of events to them to be introduced to impeach
any materially inconsistent testimony he might offer at trial. Rosen’s conviction certainly was
not brought about by the state’s unlawful use at trial of compelled statements in violation of the
Fifth Amendment, as no such statements were introduced against him.

We cannot accept

Rosen’s arguments that his current detention is attributable to this evidentiary ruling by the state
court or that this ruling gives rise to a Fifth Amendment claim for habeas relief. It does not.
Looking at Rosen’s claim involving his right to testify at trial, the trial court rejected the
notion that its pre-trial ruling effectively denied him his right to testify at trial, and the Superior
Court on appeal found that it was not necessary for it to consider whether Rosen’s “right to
choose to testify ... was vitiated by an evidentiary error” because it found no error in the pre-trial
ruling. See Rosen, 988 A.2d at 150.6 It is Petitioner’s burden to show that the state court
unreasonably applied a clearly-established constitutional principle when it upheld his conviction.
He points to no United States Supreme Court precedents, however, that have held that a
defendant’s fundamental right to testify is violated by an evidentiary ruling that merely exposes
him to potential impeachment.

In this posture, the state courts could not be said to have

unreasonably adjudicated his claims on direct appeal and we cannot say that he is currently being
detained due to a deprivation of his right to testify, as it was his choice to waive that right. We

6 The Pennsylvania Supreme Court limited its review to the question of the alleged evidentiary
error. See Rosen, 42 A.3d at 993.
14

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 15 of 26

conclude that the Pennsylvania state courts did not unreasonably apply any United States
Supreme Court precedents concerning the Fifth, Sixth, or Fourteenth Amendments when it
denied relief to his challenge on direct appeal concerning his failure to testify in his own defense.
B.

Ground Two: Ineffective assistance of trial counsel

The other claim upon which Petitioner seeks relief is his assertion from his 2013 PCRA
petition that Attorney Winters performed in a constitutionally deficient manner when, in the
second trial, he did not call a forensic pathologist to rebut “surprise” expert testimony of Dr.
Hood about the type of wounds indicative of a “tremendous amount of emotion” on the part of
the perpetrator of a stabbing. Petitioner contends that the absence of such wounds was utilized
by the trial court as the deciding factor in its finding that Rosen formed the specific intent to kill
Hollie. See Pet’r Mem. at 46-48.
We first address the contours of the right to the assistance of effective counsel and then
describe how this issue arose in Rosen’s trial and how the state court addressed his concerns.
1.

Ineffective assistance of counsel: The Strickland standard

The Supreme Court employs the two-prong test announced in Strickland v. Washington,
466 U.S. 668 (1984), to determine if the defendant was deprived of his right to counsel as
guaranteed by the Sixth Amendment. Pursuant to Strickland, a defendant who raises claims
based on the ineffective assistance of his counsel must prove that 1) “counsel’s representation
fell below an objective standard of reasonableness,” and 2) there is “a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have been
different.” Id. at 688, 694.
To satisfy the first prong of the Strickland test, a defendant must show that “counsel
made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment.” Id. at 687.
15

In evaluating counsel’s performance, a

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 16 of 26

reviewing court should be “highly deferential” and must make “every effort ... to eliminate the
distorting effects of hindsight, to reconstruct the circumstances of counsel’s challenged conduct,
and to evaluate the conduct from counsel’s perspective at the time.” Id. at 689. Moreover, there
is a “strong presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance; that is, the defendant must overcome the presumption that, under the
circumstances, the challenged action ‘might be considered sound trial strategy.’” Id.
To satisfy the second prong of the Strickland test, the defendant must show “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. “A reasonable probability is a probability sufficient to
undermine confidence in the outcome” of the proceeding. Id. It follows that counsel cannot be
ineffective for failing to pursue meritless claims or objections.

See, e.g., United States v.

Sanders, 165 F.3d 248, 253 (3d Cir. 1999); United States v. Fulford, 825 F.2d 3, 9 (3d Cir.
1987).
2.

State court presentation and adjudication

Rosen’s claim arises from testimony given at his second trial by the medical examiner
called by the Commonwealth.

At the first trial, Dr. Halbert Fillinger, the pathologist who

conducted the post-mortem examination of Hollie’s body, described the location and size of
wounds and the path the knife traveled through her body, offering his opinion that she bled to
death from her injuries. He did not offer an opinion regarding the state of mind of the person
who inflicted the stab wounds. See N.T. Trial I, 5/1/02 at 58-75 [Doc. 9-2 at 449, et seq.] The
Commonwealth also called Dr. Ian Hood, another medical examiner, regarding Petitioner’s
injuries, almost all of which Dr. Hood concluded were self-inflicted. See id. at 18-29 [Doc. 9-2
at 437 et seq.].

By the time of the second trial, Dr. Fillinger was deceased, and the

Commonwealth introduced the transcript of his prior testimony. The only medical expert the
16

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 17 of 26

Commonwealth called at the second trial was Dr. Hood, who now also offered testimony
regarding Hollie’s injuries — the six significant stab wounds and other smaller or superficial
injuries — based on his review of photographs and Dr. Fillinger’s post-mortem examination,
even though he had previously testified only concerning Rosen’s own injuries. N.T. Trial II,
7/21/08, at 85-110 [Doc. 12-59]. The testimony then reached new territory:
Q. [PROSECUTOR] Doctor, when we spoke, you had mentioned
something about this not being an overkill?
A. [IAN HOOD] Yes. That’s really a term of art. It has no
particular scientific basis.
It’s a matter of experience, in that - where there’s a lot of
emotion involved. You see it a lot in domestic cases, particularly
homosexual males is where it was first described. Then the person
who’s doing the killing just continues to flail away with whatever
weapon they’re using at the victim, long after the victim has ceased
to struggle.
We call that overkill. It is often characterized by a
multiplicity of wounds, much more than you see here. And clear
evidence of the wounds being inflicted on somebody. There is no
bruising anymore. So you have a couple of dozen wounds that are
clustered in one area, all going the same way, indicating that the
individual is no longer moving, and that we would call overkill.
Are the injuries to Hollie consistent with an overkill, in your
Q.
opinion?
A.
Not in number and not in their distribution, either. She’s
clearly moved while being - while sustaining these wounds. She’s
clearly struggled against them, hence the damage to her hands.
But she’s got an injury to her neck, her left chest and four to
her back.
That doesn’t necessarily mean that she turned around and
got her back to the attacker. Having seen pictures that you’ve seen,
where there is very little cast-off blood or blood from anywhere
except the edge of it being on the floor right next to it, where she
fell.

17

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 18 of 26

It may well be that she is stabbed from the front first and
then collapses forward onto her knees, with her back now below the
level of the attacker, who remains in front of her all of the time. So
just because she has knife wounds in the back, you don’t have to
touch them like that.
Either she or her attacker changed their relationship to one
another. All she has to do is lean forward at the waist.
Id. at 110-12.
Attorney Winters testified at the 2014 PCRA hearing that he had not been advised by the
prosecutor that Dr. Hood’s live testimony would touch upon any sort of description of the
encounter between the Rosens or whether the wounds were consistent with the perpetrator
“losing it.” See N.T. PCRA 3/3/14 at 8-10 [Doc. 12-29],7 His theory, however, was that Rosen
stabbed Hollie when he “snapped” following an argument in which she attacked him and that he
stopped stabbing when he recovered himself.

He acknowledged that he did not consider

consulting with or calling an expert to testify that the number and distribution of injuries
sustained by Hollie Rosen was typical for an emotionally charged domestic homicide or that the
injuries might somehow raise doubt that Rosen possessed the specific intent to kill his wife when
he stabbed her. See id.
The record reflects that after this testimony of Dr. Hood regarding “overkill” was given,
Attorney Winters used his closing argument at trial to seek to portray Dr. Hood’s testimony as
supportive of and fitting in with an account that Rosen had given to police, in which “he admits
7 Attorney Winters and the Commonwealth attorney at the PCRA hearing took issue with PCRA
counsel’s characterization of Dr. Hood’s trial testimony and whether Dr. Hood described what
the wound profile would need to be for the killing to have been, in counsel’s words, a “rage
killing.” Attorney Winters confirmed that a “rage killing” was not what he sought to portray.
His theory was that Rosen did not act with specific intent to kill and was involved in a fight that
went wrong: Rosen “snapped,” stabbed Hollie multiple times, and then recovered himself. In
Winters’s view, “it wasn’t a maniac kind of thing.” N.T. PCRA 3/3/14 at 27-28 [Doc. 12-29],

18

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 19 of 26

stabbing his wife[,] ... [that] she had a knife[,] [that] it started in the kitchen[,] [and] it led upstairs[,] [that] he got the knife away[,] [that] he snapped, and he stabbed[.]” (N.T. Trial II,
Vol. 2 at 13) (defense closing) [Doc. 9-2 at 389, et seq,].8 He continued:
We have the testimony of Doctor Hood. I thought some of
the testimony of Doctor Hood yesterday was very enlightening in
that he did not believe that the first wounds inflicted were the
deadly wounds, the stabbing in the neck, the stabbing in heart. If
you recall, she had, according to Doctor Hood, over a dozen
superficial cuts. We even saw some of those on the neck and other
parts of her body, which suggests to me, Your Honor, the evidence
is that there was some type of struggle. She had defensive wounds.

The other thing that the doctor suggested is that she was not
lying in bed when the fatal wounds were inflicted.
The other thing that Doctor Hood, I believe, testified that I
think is beneficial to our point of view is that this was not an
overkill.
The Commonwealth is going to argue to you that Adam
Rosen wanted out of this marriage; he wanted to kill his wife and
get out, because she was going to take his money and his kids.
What more of a reason for an overkill would that be?
And I suggest to you Doctor Hood’s testimony that it is not
an overkill. It is an indication that this happened exactly as Adam
said. He got the knife. He snapped. He started swinging it, and he
eventually stabbed her.

8

The transcript of the second and final day of trial — consisting of a colloquy, closing
arguments, and the verdict — does not appear to be included among the 115 separate PDF files
that comprise the state court record we received from the Court of Common Pleas, Doc. 12.
Petitioner attached a copy of this transcript to his briefing, Doc. 9. Inasmuch as we do not
recommend habeas relief, we did not find it necessary to ascertain whether Rosen, as the
appellant in the various proceedings following his second conviction, failed in any way to ensure
that the trial court record contained this transcript when the record was certified for appeal and
transmitted from the Court of Common Pleas to the Superior Court. See Pa. R.A.P. 1921.

19

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 20 of 26

Id. at 14-16.9
On PCRA review, Rosen presented a report of a forensic pathologist and medical
examiner, Dr. Charles Wetli, who could have testified that the number and distribution of
Hollie’s wounds were “typical for an emotionally charged domestic homicide and does not
reflect any malice aforethought or intent to kill.” Rosen, No. CP-46-CR-0005182-2001, slip op.
, at 12 [Doc. 12-44] (quoting Dr. Wetli Report). The PCRA Court, however, denied relief because
the claim “rests on [a faulty] premise” that Dr. Hood, the Commonwealth witness, opined that
Rosen did not act in a heat of passion. Id. at 16-17. The court also denied relief based upon its
conclusion that Dr. Hood’s testimony regarding “overkill” was “relatively unimportant” in light
of other evidence supporting the notion that Petitioner intended to kill Hollie and which Judge
Tressler cited when explaining his verdict. Id. at 17-18, 20. The PCRA Court also concluded
that Rosen had not established the prejudice component of his ineffectiveness claim, as there was

9 In his closing argument that followed, the prosecutor argued that either the chest wound, the
neck wound, or the wound to the back that pierced Hollie’s lung could provide proof of specific
intent to kill standing alone. He continued, adding his interpretation of what Dr. Hood’s
testimony meant:
And certainly all of the circumstantial evidence that we’ve shown,
when you put them all together, when you look at all of them,
though, both the chest wound and the neck wound and the wound to
the back, it is clear what the Defendant wanted to do.
And if you look back at Doctor Hood’s testimony, he said it
was not an overkill, meaning not a case where rage had taken over,
and they just kept stabbing and stabbing and stabbing a lifeless
body.
The Defendant did not flip out that morning. He made a
decision, some time that morning, to kill his wife. And he stabbed
her until she was dead.
(N.T. Trial II, Vol. 2 at 34).
20

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 21 of 26

no reasonable basis to believe that testimony of Dr. Wetli in response to that of Dr. Hood would
have prevented Judge Tressler from convicting on first-degree murder. As Judge Demchick
Alloy explained:
Petitioner cannot prevail merely by showing that expert
testimony consistent with Dr. Wetli’s report would have caused a
hypothetical, “reasonable person” or “reasonable jury” to have
found that petitioner acted under the influence of a sudden, intense
passion. Petitioner, with the assistance of counsel, deliberately
chose Judge Tressler to decide the question of intent, hence
petitioner must show a reasonable probability that Judge Tressler,
specifically, would not have reached a verdict of first degree
murder if Mr. Winters had produced expert witness testimony
consistent with Dr. Wetli’s report. The evidence of record does not
indicate that Judge Tressler gave any weight to the testimony
regarding “overkill,” as one might expect, given that Dr. Hood
called it a term of art with no scientific basis. Judge Tressler never
used the term “overkill” when he announced the verdict. He never
stated or implied that Hollie’s wounds were not sufficiently
numerous to preclude him from inferring a specific intent to kill.
He never stated or implied that the lack of evidence that petitioner
continued to stab Hollie after she ceased struggling led him to infer
that petitioner had formed a specific intent to kill. To the extent
that the medical evidence influenced the verdict, the record
indicates that Judge Tressler was persuaded by the length, depth,
width, shape and sequence of the wounds, not their number or
whether they were inflicted after death. Dr. Hood’s testimony
regarding overkill was ambiguous as to petitioner’s state of mind,
the record gives no reason to believe Judge Tressler did not
understand that, and thus there is no reason to believe that he would
have interpreted the medical evidence more favorably to petitioner
if Dr. Wetli had told him so.
Moreover Dr. Wetli’s report makes nothing more than a
conclusory statement that Hollie’s wounds did not indicate that
petitioner acted with a specific intent to kill. Dr. Wetli focused
narrowly on rebutting the prosecutor’s closing argument regarding
overkill, but Judge Tressler adopted a broad focus, considering not
only the wounds but petitioner’s losing battle against his propensity
to dissipation in the months leading to the murder. Petitioner’s
behavior over that extended period of time provided the context for
the deductions Judge Tressler drew from the medical evidence, and
they constituted the majority of Judge Tressler’s statement of his
verdict. Dr. Wetli’s expert opinion was based on less evidence than
21

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 22 of 26

Judge Tressler’s, thus there is little reason to believe it would have
had [sic] caused the judge to reach a more favorable verdict.
Because the record shows no evidence that Judge Tressler
ascribed any weight to Dr. Hood’s testimony regarding overkill,
and because Judge Tressler interpreted the evidence of Hollie’s
wounds in the context of petitioner’s trend toward dissipation,
petitioner has failed to establish, by a preponderance of the
evidence, a reasonable probability that the judge would not have
reached a verdict of first degree murder if Mr. Winters had
produced expert opinion evidence consistent with that of Dr. Wetli.
Id. at 22-23.
The Pennsylvania Superior Court affirmed, adopting the lower court’s opinion but also
providing additional analysis of the rationale articulated by Judge Tressler as the finder of fact.
It noted that the trial court “clearly based its finding of a specific intent to kill on the lethal nature
of the chest and neck wounds,” and that the stab wounds in the back were consistent with Rosen
stabbing her further to insure that she had, in fact, died. Commonwealth v. Rosen, No. 1260
EDA 2014, slip op. at 6-7 (Pa. Super. Ct. May 11, 2015) [Doc. 24-7]. As to the question of the
alleged ineffectiveness of Attorney Winters to present expert testimony in rebuttal of Dr. Hood’s
comment about the stab wounds and “overkill,” the Superior Court determined that:
Since the trial court relied upon the utterly lethal nature of the chest
and neck wounds to find a specific intent to kill, and not upon any
implication by Dr. Hood’s testimony that this was not a rage or heat
of passion killing, we find that expert medical testimony countering
Dr. Hood would not have changed the result at trial; hence, we find
no prejudice and no ineffectiveness.
Id. at 7. The Superior Court thus agreed with the lower court that Rosen had not met his burden
on this Strickland claim.

22

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 23 of 26

3.

The state court did not unreasonably reject Petitioner’s claim that
Attorney Winters was ineffective when he failed to present expert
testimony to rebut Dr. Hood’s testimony concerning any relationship
between the number or type of stab wounds and Petitioner’s intent.

We do not find the Superior Court to have unreasonably applied Strickland when it
rejected on PCRA appeal this claim of trial counsel ineffectiveness for failure to present rebuttal
expert testimony in response to Dr. Hood’s comments about how a large number of stab wounds
to a dead body can establish “overkill.” Petitioner contends that there is a reasonable likelihood
of a different outcome if trial counsel had presented the testimony of a witness such as Dr. Wetli
that the stab wounds on Hollie were not consistent with “overkill,” as the prosecutor then would
not have been able to argue in his closing that this was “not a case where rage had taken over.”
See N.T. Trial II, Vol. 2 at 34 [Doc. 9-2 at 388, et seq.]. He contends that a continuance of trial
would have been available to allow Attorney Winters to seek an expert opinion following the
introduction of this “new opinion” of Dr. Hood, and that there was no strategic reason for trial
counsel’s decision not to pursue this. He argues that there is a reasonable probability of a
different outcome because the trial judge referenced Hollie’s “wounds” in his explanation of his
decision and “plainly concluded that the decedent’s specific wounds were not consistent with the
actions of someone who had ‘snapped’ and who did not act with specific intent,” which had been
the defense theory of the case. (Pet’r Mem. at 58.)
Petitioner contends that the state court “misinterpreted both the facts and the applicable
law” when it denied PCRA relief, pointing to various allegedly “inaccurate statements of fact” in
the PCRA Court’s opinion that he argues “underlie its erroneous legal conclusions,” which were
then adopted by the Superior Court. (Pet’r Mem. at 59.) We have considered his arguments that:
“The Commonwealth’s expert did, in fact, offer an opinion regarding Petitioner’s state of mind at
the time of the confrontation” (id. at 60, § l.a heading); that “Petitioner has not offered an
23

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 24 of 26

‘incomplete and oversimplified’ description of the trial court’s verdict” {id. at 61, § l.b heading);
that “the PCRA court has mischaracterized the conclusions in Petitioner’s expert report” {id. at
65, § l.c heading); and that “the [PCRA Court’s] opinion mistakenly asserts that Petitioner
waived certain claims {id. at 66, § l.d heading). We have found little utility in Petitioner’s
approach of quibbling with how the PCRA Court characterized the trial evidence and the
proffered opinion of Dr. Wetli.10 It is not this Court’s task to re-weigh evidence but rather to
determine whether the Superior Court’s resolution of this ineffectiveness claim concerning
Attorney Winters is reasonable under Strickland. See, e.g., Harrington v. Richter, 562 U.S. 86,
103 (2011) (emphasizing that petitioner must show that the state court’s ruling on the claim “was
so lacking in justification that there was an error well understood and comprehended in existing
law beyond any possibility for fairminded disagreement”).
Here the state court clearly and reasonably explained that the verdict turned on “the
utterly lethal nature of the chest and neck wounds to find a specific intent to kill, and not upon
any implication by Dr. Hood’s testimony that this was not a rage or heat of passion killing[.]”
Rosen, No. 1260 EDA 2014, slip op. at 7 (Pa. Super. Ct. May 11, 2015) [Doc. 24-7], We find
none of the arguments in Petitioner’s brief to alter our conclusion that the Superior Court’s
analysis of Petitioner’s Strickland claim was neither factually nor legally unreasonable. In that
the Superior Court did not unreasonably adjudicate the Strickland claim when it concluded that
Petitioner was not prejudiced by trial counsel’s failure to call a rebuttal pathologist regarding the

10 Nor do we agree with Petitioner’s suggestion that the state court decision on this
ineffectiveness claim cannot stand because either “the [PCRA Court’s] opinion erroneously
concludes that it is ‘irrelevant’ whether Petitioner acted under a sudden and intense passion”
(Pet’r Mem. at 67, § 2.a heading), or “the [PCRA Court’s] opinion erroneously concludes that
‘overkill’ was ‘relatively unimportant’ to the outcome of Petitioner’s trial” {id. at 72, § 2.b).
24

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 25 of 26

forensic conclusions that could be derived from the injuries to the decedent, habeas relief is not
available to Petitioner on this claim.
IV.

CONCLUSION
We have thoroughly considered Petitioner’s submissions and the state court record. We

are unable to accept that he was convicted in violation of the Constitution, see 28 U.S.C.
§ 2254(a), and that the state court’s rejection of his claim concerning the in limine ruling
reflected an unreasonable application of clearly established law determined by the United States
Supreme Court. Petitioner has not demonstrated that any Supreme Court authority held that a
trial court could deprive a defendant of his right to testify when the record shows that he waived
this right following a colloquy. In that the state court’s adjudication of this claim in the direct
appeal did not unreasonably apply constitutional principles, relief is not due on his first claim.
We also find nothing unreasonable in the state court’s conclusion on PCRA review that his
Strickland claim was without merit. Neither trial counsel nor the trial court, sitting as factfinder,
considered the “overkill” line of questioning to have elicited particularly pertinent testimony of
Dr. Hood.

Both found other aspects of the case more significant to the question of what

evidence supported or undermined the Commonwealth’s contention that at least one of the fatal
wounds was inflicted with the specific intent to kill.

In light of the “doubly deferential”

approach we must take under 28 U.S.C. § 2254(d) as to questions of counsel’s strategy that were
already considered on the merits by the state court, see Harrington v. Richter, 562 U.S. 86, 105
(2011), we have no trouble concluding that relief is not warranted on Ground Two.
Pursuant to Local Appellate Rule 22.2 of the Rules of the United States Court of Appeals
for the Third Circuit, at the time a final order denying a habeas petition is issued, the District
Court judge is required to make a determination as to whether a certificate of appealability
(“COA”) should issue.

A COA should issue “only if the applicant has made a substantial
25

Case 2:15-cv-04539-NIQA Document 26 Filed 10/26/17 Page 26 of 26

showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). As further explained by
the Supreme Court, “[w]here a district court has rejected the constitutional claims on the merits,
the showing required to satisfy § 2253(c) is straightforward: The petitioner must demonstrate
that reasonable jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Here, for the reasons set forth above, we do not believe that reasonable jurists would
debate our conclusions that the claims raised in the petition do not give rise to relief.
Accordingly, we do not believe a COA should issue. Our Recommendation follows.

RECOMMENDATION
AND NOW, this 25th day of October, 2017, it is respectfully RECOMMENDED that
the petition for a writ of habeas corpus be DENIED WITHOUT AN EVIDENTIARY
HEARING. It is FURTHER RECOMMENDED that a certificate of appealability should
NOT ISSUE, as we do not believe that Petitioner has made a substantial showing of the denial
of a constitutional right.
Petitioner may file objections to this Report and Recommendation. See Local Civ. Rule
72.1. Failure to file timely objections may constitute a waiver of any appellate rights.
BY THE COURT:

/s/ David R. Strawbridge, USMJ
DAVID R. STRAWBRIDGE
UNITED STATES MAGISTRATE JUDGE

26

Case: 18-3111

Document: 107

Page: 1

Date Filed: 09/22/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-3111

ADAM ROSEN,
Appellant
v.

SUPERINTEDENT MAHANOY SCI;
ATTORNEY GENERAL OF THE
COMMONWEALTH OF PENNSYLVANIA

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(2-15-cv-04539)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges

The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

Case: 18-3111

Document: 107

Page: 2

Date Filed: 09/22/2020

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ Theodore A. McKee
Circuit Judge
Dated: September 22, 2020
Lmr/cc: Jonathan D. Cioschi
Karl D. Schwartz
Robert M. Falin
Adrienne D. Jappe

